<html>
<title> - BORDER SECURITY GADGETS, GIZMOS, AND INFORMATION: USING TECHNOLOGY TO INCREASE SITUATIONAL AWARENESS AND OPERATIONAL CONTROL</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]




For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Publishing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="096e7966496a7c7a7d616c6579276a666427">[email&#160;protected]</a>  
2017


 BORDER SECURITY GADGETS, GIZMOS, AND INFORMATION: USING TECHNOLOGY TO 
         INCREASE SITUATIONAL AWARENESS AND OPERATIONAL CONTROL

=======================================================================

                                 HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                               BORDER AND
                           MARITIME SECURITY

                                 OF THE

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 24, 2016

                               __________

                           Serial No. 114-72

                               __________

       Printed for the use of the Committee on Homeland Security
                                     

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 

                                    

      Available via the World Wide Web: http://www.gpo.gov/fdsys/

                               __________


                     U.S. GOVERNMENT PUBLISHING OFFICE
23-244 PDF                     WASHINGTON : 2017                     

_________________________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="f6918699b6958385829e939a86d895999bd8">[email&#160;protected]</a>  



                     COMMITTEE ON HOMELAND SECURITY

                   Michael T. McCaul, Texas, Chairman
Lamar Smith, Texas                   Bennie G. Thompson, Mississippi
Peter T. King, New York              Loretta Sanchez, California
Mike Rogers, Alabama                 Sheila Jackson Lee, Texas
Candice S. Miller, Michigan, Vice    James R. Langevin, Rhode Island
    Chair                            Brian Higgins, New York
Jeff Duncan, South Carolina          Cedric L. Richmond, Louisiana
Tom Marino, Pennsylvania             William R. Keating, Massachusetts
Lou Barletta, Pennsylvania           Donald M. Payne, Jr., New Jersey
Scott Perry, Pennsylvania            Filemon Vela, Texas
Curt Clawson, Florida                Bonnie Watson Coleman, New Jersey
John Katko, New York                 Kathleen M. Rice, New York
Will Hurd, Texas                     Norma J. Torres, California
Earl L. ``Buddy'' Carter, Georgia
Mark Walker, North Carolina
Barry Loudermilk, Georgia
Martha McSally, Arizona
John Ratcliffe, Texas
Daniel M. Donovan, Jr., New York
                   Brendan P. Shields, Staff Director
                    Joan V. O'Hara,  General Counsel
                    Michael S. Twinchek, Chief Clerk
                I. Lanier Avant, Minority Staff Director
                                 ------                                

              SUBCOMMITTEE ON BORDER AND MARITIME SECURITY

                   Martha McSally, Arizona, Chairman
Lamar Smith, Texas                   Filemon Vela, Texas
Mike Rogers, Alabama                 Loretta Sanchez, California
Candice S. Miller, Michigan          Sheila Jackson Lee, Texas
Jeff Duncan, South Carolina          Brian Higgins, New York
Lou Barletta, Pennsylvania           Norma J. Torres, California
Will Hurd, Texas                     Bennie G. Thompson, Mississippi 
Michael T. McCaul, Texas (ex             (ex officio)
    officio)
              Paul L. Anstine, Subcommittee Staff Director
                    Kris Carlson, Subcommittee Clerk
         Alison Northrop, Minority Subcommittee Staff Director
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Martha McSally, a Representative in Congress From 
  the State of Arizona, and Chairwoman, Subcommittee on Border 
  and Maritime Security:
  Oral Statement.................................................     1
  Prepared Statement.............................................     3
The Honorable Filemon Vela, a Representative in Congress From the 
  State of Texas, and Ranking Member, Subcommittee on Border and 
  Maritime Security..............................................     4
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Ranking Member, Committee on 
  Homeland Security:
  Prepared Statement.............................................     5

                               Witnesses

Mr. Ronald Vitiello, Acting Chief, U.S. Border Patrol, U.S. 
  Department of Homeland Security:
  Oral Statement.................................................     7
  Joint Prepared Statement.......................................    11
Mr. Major General Randolph D. ``Tex'' Alles, (Ret.-USMC), 
  Executive Assistant Commissioner, Office of Air and Marine 
  Operations, U.S. Customs and Border Protection, U.S. Department 
  of Homeland Security:
  Oral Statement.................................................     8
  Joint Prepared Statement.......................................    11
Mr. Mark Borkowski, Assistant Commissioner and Chief Acquisition 
  Executive, Office of Technology Innovation and Acquisition, 
  U.S. Customs and Border Protection, U.S. Department of Homeland 
  Security:
  Oral Statement.................................................     9
  Joint Prepared Statement.......................................    11
Ms. Rebecca Gambler, Director, Homeland Security and Justice, 
  U.S. Government Accountability Office:
  Oral Statement.................................................    17
  Prepared Statement.............................................    18

 
 BORDER SECURITY GADGETS, GIZMOS, AND INFORMATION: USING TECHNOLOGY TO 
         INCREASE SITUATIONAL AWARENESS AND OPERATIONAL CONTROL

                              ----------                              


                         Tuesday, May 24, 2016

             U.S. House of Representatives,
                    Committee on Homeland Security,
              Subcommittee on Border and Maritime Security,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 2:53 p.m., in 
Room 311, Cannon House Office Building, Hon. Martha McSally 
[Chairwoman of the subcommittee] presiding.
    Present: Representatives McSally, Rogers, Duncan, Hurd, 
Vela, Torres, and Thompson (ex officio).
    Ms. McSally. The Committee on Homeland Security, 
Subcommittee on Border and Maritime Security will come to 
order. The subcommittee is meeting today to examine CBP's 
procurement and use of technology to secure the Southern 
Border. I recognize myself for an opening statement.
    First, let me say thanks for your patience. I know we are 
now nearly an hour behind. We will try to be as expeditious as 
possible. We value your time, but you never know when votes are 
going to come up. So I appreciate your grace and your patience 
with that.
    The Southwest Border of the United States is home to nearly 
2,000 miles of majestic, yet rugged and often treacherous 
terrain, terrain that makes Border Patrol access in some remote 
areas a mere impossible proposition. Manpower alone, while 
essential, will never be enough to secure the border. In order 
to enhance situational awareness, we need to leverage 
technological force multipliers that provide persistent 
surveillance across wide swaths of remote areas along the 
border.
    Technology such as cameras, night vision goggles, motion 
sensors, and surveillance equipment have become critical 
elements of our border security operations. These technologies 
have enhanced agent safety, provide a constant monitoring of 
difficult-to-access areas, and extended situational awareness, 
and the ability to interdict criminal activity faster.
    Aviation assets, such unmanned aerial vehicles, or UAVs, 
often considered UASs, unmanned aerial systems, equipped with 
advanced radar capabilities, have also refined our 
understanding of the significant threat that exists along the 
border, and help reposition and redeploy assets as the flow and 
the vulnerability shift. But technology cannot do any of these 
things if CBP's acquisition and procurement process cannot get 
these tools and the latest cutting-edge technology in the hands 
of the men and women on the ground in a timely fashion.
    Situation awareness is contingent on feeding information 
from centralized operation centers far from the border down to 
the individual agent level, so they can actually respond 
accordingly. Technology has to be focused on meeting the 
immediate needs of the agent, and not stovepiped into a command 
center. I speak to this from first-hand information. I have 
more experience than I would prefer to have in some cases on, 
you know, time-sensitive targeting, on operations centers in 
the military, and so these challenges are similar as far as 
merging together information providing a good common 
operational picture, situation awareness, but not just to the 
generals, but to the troops and those that are actually doing 
the mission. So that is always going to be my sort-of frame of 
mind. Although it is not the same as in the military, there are 
similar challenges as far as using technology, fusing 
information, and providing real-time, near-time decision 
quality information to leadership and to those that are out 
there on the front lines.
    CBP's border technology procurement efforts, to put it 
mildly, have a bit of a checkered history of not delivering 
timely acquisitions that include more failures than successes, 
including the Secure Border Initiative, coastal interceptor 
vessel, ultralight aircraft detection, and mobile surveillance 
capability, which have all become synonymous with a deeply 
troubled acquisition process. These procurements have run over 
budget, behind schedule, been subject to litigation, and wasted 
a good deal of taxpayer dollars to boot. In this time of 
limited budgets, we cannot afford to waste $1 billion on a 
failed system to learn what not to do. Border security cannot 
continue to be held back by a system that has an astonishing 
lack of urgency in getting it done for the people on the 
ground.
    Our agents and officers in the field desperately need the 
capability they have asked for to do the job. But on the whole, 
I don't believe CBP's Office of Technology Innovation and 
Acquisition, OTIA, has delivered. OTIA's mission is to identify 
and acquire products and services to improve CBP's performance 
in securing the borders.
    OTIA has been the lead agency responsible for acquiring 
technologies associated with the Arizona technology plant. As 
far as I can tell, the only procurement that is working well 
and is on budget is the integrated fixed tower program located 
principally in my district. However, this comes after chronic 
delays and the cancellation of SBInet. Now on track, Chief 
Vitiello recently certified to Congress that the program meets 
its operational requirements.
    With the exception of that outlier, industry officials we 
have spoken to tell us over and over again, CBP's requirements 
are often poorly drafted, ill-defined, and, perhaps, most 
alarmingly not stable. Transparency is also a challenge as the 
CBP's ability to forecast their needs so industry can spend the 
research and development dollars to mature technology for use 
in border security applications.
    The Government Accountability Office, GAO, has, on several 
occasions, criticized CBP for not following aspects of DHS's 
acquisition management guidance with the Arizona border 
technology plant and the lack of performance metrics to 
determine if the cost is worth the border security improvement.
    As a result of CBP's troubling procurement record, I 
authored the Border Security Technology Accountability Act that 
ensures border security programs are meeting costs, schedule, 
and performance thresholds, and that technology is subjected to 
a rigorous independent verification and validation process. 
This legislation is vital to restore accountability, but it is 
being held up for reasons unknown in the Senate, even though it 
passed unanimously in the House.
    I am interested to hear from our witnesses on how CBP 
conducts market research, forges for emerging technology, 
repurposes existing Department of Defense equipment, and 
collaborates with DHS's Office of Science and Technology to 
mature technology not quite ready for field deployment. 
Congress repeatedly asked a very simple question when it comes 
to border security: What will it take to gain situational 
awareness and operational control of the Southern Border? Up 
until now, the answer we received have been limited, or not 
backed up by a requirements process, similar to what the 
Department of Defense uses. In short, it was a guess.
    The Border Patrol and Air and Maritime Operations are 
involved in an effort called the ``capability gap analysis 
process,'' or CGAP. It is an aerial-based exercise designed to 
ferret out tactical weaknesses in our border security defenses 
and, hopefully, inform the technological budget process. 
Congress expects the Border Patrol and Air and Marines to be 
able to quickly identify and justify the resources needed to 
secure the border. I am optimistic the CGAP process is a much-
needed step in that direction.
    Finding solutions to CBP's procurement woes and quickly 
meeting the technology requirements of the men and women 
charged with securing the border is the reason I am holding 
this hearing today. I look forward to the witnesses' testimony.
    [The statement from Chairwoman McSally follows:]
                 Statement of Chairwoman Martha McSally
                              May 24, 2016
    The Southwest Border of the United States is home to nearly 2,000 
miles of majestic, yet rugged and often treacherous terrain. Terrain 
that makes Border Patrol access, in some remote areas, a near 
impossible proposition.
    Manpower alone, while essential, will never be enough to secure the 
border. In order to enhance situational awareness, we need to leverage 
technological force multipliers that provide surveillance across wide 
swaths of remote areas along the border.
    Technologies such as cameras, night vision devices, motion sensors, 
and surveillance equipment, have become critical elements of our border 
security operations. These technologies have enhanced agent safety, 
provided constant monitoring of difficult to access areas, and extended 
situational awareness and the ability to interdict criminal activity.
    Aviation assets, such as Unmanned Aerial Vehicles, equipped with 
advanced radar capabilities, have also refined our understanding of the 
significant threat that exists along the border and has helped 
reposition and redeploy assets as flow and vulnerabilities shift.
    But technology cannot do any of those things if CBP's acquisition 
and procurement process cannot get these tools and the latest cutting-
edge technology in the hands of the men and women on the ground in a 
timely fashion.
    Situational awareness is contingent on feeding information from 
centralized operations centers, far from the border, down to the 
individual agent level, so they can respond accordingly. Technology has 
to be focused on meeting the immediate needs of the agent and not 
stove-piped in a command center.
    CBP's border technology procurement efforts, to put it mildly, have 
a checkered history of not delivering timely acquisitions that include 
more failures than successes, including the Secure Border Initiative, 
Coastal Interceptor Vessel, Ultralight Aircraft Detection, and the 
Mobile Surveillance Capability, which have all become synonymous with a 
deeply-troubled acquisition process.
    These procurements have run over budget, behind schedule, been 
subject to litigation, and wasted a good deal of taxpayer dollars to 
boot. In this time of limited budgets, we cannot afford to waste a 
billion dollars on a failed system to learn what not to do.
    Border security cannot continue to be held back by a system that 
has an astonishing lack of urgency in getting it done for people on the 
ground.
    Our agents and officers in the field desperately need the 
capabilities they have asked for to do the job, but on the whole, I do 
not believe that CBP's Office of Technology and Acquisition or (OTIA) 
has delivered.
    OTIA's mission is to identify and acquire products and services to 
improve CBP's performance in securing the borders. OTIA has been the 
lead agency responsible for acquiring technologies associated with the 
Arizona Technology Plan.
    But as far as I can tell, the only procurement that is working well 
and on budget is the Integrated Fixed Tower program, located 
principally in my district, however, this comes after chronic delays 
and the cancellation of SBInet. Now on track, Chief Vitiello recently 
certified to Congress that the program meets its operational 
requirements.
    With the exception of that outlier, industry officials we have 
spoken to tell us over and over again that CBP's requirements are often 
poorly drafted, ill-defined and, perhaps most alarming, not stable.
    Transparency is also a challenge, as is CBP's ability to forecast 
their needs so industry can spend the Research and Development dollars 
to mature technology for use in border security applications.
    The Government Accountability Office has, on several occasions, 
criticized CBP for not following aspects of DHS's acquisition 
management guidance with the Arizona Border Technology plan, and the 
lack of performance metrics to determine if the cost is worth the 
border security improvement.
    As a result of CBP's troubling procurement record, I authored the 
Border Security Technology Accountability Act that ensures border 
security programs are meeting cost, schedule, and performance 
thresholds and that technology is subjected to a rigorous independent 
verification and validation process.
    This legislation is vital to restore accountability but is being 
held up, for reasons unknown, in the Senate.
    I am interested to hear from our witnesses how CBP conducts market 
research, forages for emerging technology, repurposes excess Department 
of Defense equipment, and collaborates with DHS's office of Science and 
Technology to mature technology not quite ready for field deployment.
    Congress repeatedly asks a very simple question when it comes to 
border security: What will it take to gain operational control and 
situational awareness of the Southern Border?
    Up until now, the answer we received was limited, or not backed by 
a requirements process similar to what the Defense Department uses. In 
short, it was a guess.
    The Border Patrol and Air and Marine Operations are involved in an 
effort called the Capability Gap Analysis Process, or C-GAP, a 
scenario-based exercise designed to ferret out tactical weaknesses in 
our border security defenses and hopefully inform the technological 
budget process.
    Congress expects the Border Patrol and Air and Marine to be able to 
quickly identify, and justify the resource needs required to secure the 
border. I am optimistic that the C-GAP process is a much needed step in 
that direction.
    Finding solutions to CBP's procurement woes and quickly meeting the 
technological requirements of the men and women charged with securing 
the border is the reason I am holding this hearing today.
    I look forward to the witness's testimony.

    Ms. McSally. The Chair now recognizes the Ranking Member of 
the subcommittee, the gentleman from Texas, Mr. Vela, for a 
statement he might have.
    Mr. Vela. Thank you, Madam Chairwoman. I am pleased to join 
you for today's hearing, examining U.S. Customs and Border 
Protection's efforts to enhance border security through the use 
of technology.
    As a Member of Congress representing a district in the 
U.S.-Mexico border, I understand the importance of technology 
to achieving improved situational awareness, enhanced security, 
and improved facilitation of legitimate traffic along our 
Nation's borders.
    The Department of Homeland Security has, for years, 
attempted to delay various kinds of technology to the borders 
with mixed results. To be fair, identifying, acquiring, and 
deploying the right mix of border security technology is no 
easy task. Technology evolves over time. The flow of border 
crosses and illicit traffic changes. America's borders are 
varied places with different geography, terrain, and climate, 
meaning that what works in Arizona may not work in South Texas, 
and likely will not work on our northern borders. It is 
important that this committee conduct careful oversight of 
CBP's on-going border security technology efforts, including 
the Arizona border surveillance technology plan, and deployment 
of integrated fixed towers in Arizona, procurement of mobile 
surveillance technologies, and the use of Predator B unmanned 
aircraft.
    The Government Accountability Office has reported on the 
Arizona border surveillance technology plan identifying 
management, scheduling, and cost concerns similar to those that 
contributed to SBInet's problems.
    I hope to hear from our GAO witness today about whether and 
how those issues are being addressed by CBP. Given my 
particular interest in South Texas, I also hope to hear from 
our witnesses about the border security's technologies in use 
or planned for the South Texas region. For example, I 
understand that there was a protest with a contract award for 
mobile video surveillance system units which consist of short- 
and medium-range mobile surveillance equipment mounted on 
telescoping masks mounted on Border Patrol vehicles. Many of 
the projected 297 units are slated for deployment in the Rio 
Grande Valley, and I hope to learn what the revised time line 
is for deployment.
    I also know that the weather in Corpus Christi has proven 
challenging for flying CBP's Predator Bs prompting the agency 
to fly the aircraft from other locations.
    I hope to hear from CBP about how these issues have 
affected situational awareness along the border in South Texas, 
if at all.
    Finally, I hope we can have a frank discussion with our 
witnesses about how CBP can best position its on-going border 
security technology programs for success. I thank the witnesses 
for joining us today, and I yield back.
    Ms. McSally. The gentleman yields.
    Other Members of the committee are reminded that opening 
statements may be submitted for the record.
    [The statement of Ranking Member Thompson follows:]
             Statement of Ranking Member Bennie G. Thompson
                              May 24, 2016
    This committee has conducted vigorous oversight of DHS's attempts 
to deploy security technology along our Nation's borders over the 
years--and with good reason. Beginning with the Integrated Surveillance 
Intelligence System (ISIS), later the America's Shield Initiative 
(ASI), and more recently Project 28 and SBInet, DHS has consistently 
over-promised and underdelivered border security technology.
    For example, at the time then-Secretary Janet Napolitano canceled 
SBInet, the program had been deployed to only 53 miles of border in 
Arizona at a cost of about $1 BILLION. This committee has been 
fortunate to have the Government Accountability Office (GAO) engaged on 
each of these procurements, contributing significantly to our oversight 
efforts.
    With respect to its on-going program, the Arizona Border Security 
Technology Plan, 2 years ago GAO reported that CBP was not following 
best practices for scheduling, verifying cost estimates with 
independent sources, testing technology to determine effectiveness and 
suitability, or establishing performance metrics for the technology. In 
short, GAO's initial work showed that the program suffers from some of 
the same deficiencies that ultimately led the Department to cancel the 
SBInet program.
    In March of this year, GAO reported on CBP's Integrated Fixed Tower 
(IFT) acquisition, a key component of the Arizona Border Surveillance 
Technology Plan. Announced in March 2012, the IFTs--53 fixed 
surveillance tower units equipped with ground surveillance radar, 
infrared cameras, and communications systems--were intended to address 
the capability gap left when SBInet was canceled.
    Unfortunately, DHS was forced to re-baseline the IFT program in 
December 2015, about 3 years after CBP determined the program could not 
meet its initial schedule goals. The program's full operational 
capability date has so far slipped from September 2015 to September 
2020, and acquisition costs have increased by $53 million. Those of us 
who participated in SBInet oversight had hoped CBP learned its lessons 
from that program and would be applying them to this newer effort in 
Arizona.
    I hope to hear from CBP and GAO today about the reasons for the 
cost, schedule, and performance changes for the IFTs. Similarly, I want 
to have a frank discussion about CBP's other major border security 
technology acquisitions and assets, including Mobile Surveillance 
Capabilities (MSCs), aerostats, and Predator Bs. I continue to support 
using technology as a force-multiplier along our Nation's borders.
    However, if there is anything our oversight of DHS's efforts have 
shown, border security technology must be procured, deployed, and 
utilized in an appropriate, cost-effective manner. Otherwise, CBP could 
be left with yet another border security technology system that fails 
to deliver as promised.

    Ms. McSally. We are pleased to be joined by 4 distinguished 
witnesses to discuss the important topic today:
    Ronald Vitiello, the acting chief of the U.S. Border 
Patrol. As a chief operating officer, he is responsible for the 
daily operations of the U.S. Border Patrol and assist the 
commissioner of U.S. Customs and Border Protection in planning 
and directing Nation-wide enforcement. Chief Vitiello began his 
Border Patrol career in 1985, and has served in the Swanson, 
Tucson, and Laredo sectors.
    Randolph Alles is the executive assistant commissioner for 
CBP's Office of Air and Marine, a position he has held since 
January 2013.
    In this role, Mr. Alles is charged with overseeing the AMO 
mission of using aviation and maritime assets to detect, 
interdict, and prevent acts of terrorism, and the unlawful 
movement of drugs and other contraband from entering the United 
States.
    Before joining the AMO, he spent 35 years in the United 
States Marine Corps--Semper Fi--retiring in 2011 as a major 
general.
    Mark Borkowski became the assistant commissioner for the 
Office of Technology Innovation and Acquisition, or OTIA, at 
U.S. Customs and Border Protection, or CBP, in July 2010. In 
this role, he is responsible for ensuring technology efforts 
are properly focused on mission, and well-integrated across 
CBP. Prior to his appointment as assistant commissioner, Mr. 
Borkowski was the executive director of the Secure Border 
Initiative, SBI.
    Rebecca Gambler is the director in the House U.S.--sorry. 
Let me do this again--is a director in the U.S. Government 
Accountability Office, Homeland Security and Justice team, 
where she leads GAO's work on border security, immigration, and 
the Department of Homeland Security's management and 
transformation. Prior to joining GAO, Ms. Gambler worked at the 
National Endowment for Democracy's International Forum or 
Democratic Studies.
    The witnesses' full written statements will appear in the 
record. The Chair now recognizes Chief Vitiello for 5 minutes.

STATEMENT OF RONALD VITIELLO, ACTING CHIEF, U.S. BORDER PATROL, 
              U.S. DEPARTMENT OF HOMELAND SECURITY

    Mr. Vitiello. Thank you, Chairwoman McSally, Ranking Member 
Vela, and distinguished Members of the subcommittee. It is an 
honor to appear before you today on behalf of the dedicated men 
and women of the United States Border Patrol, and discuss the 
role of technology in our border security operations between 
the ports of entry. This Saturday, the 28th, marks the Border 
Patrol's birthday. Since 1924, the men and women of this agency 
have made significant contributions to securing the homeland, 
from mounted watchmen riding the line in 1924; to guarding Nazi 
prisoners of war; in 1961, securing domestic air flights as 
marshals; and integrating universities in Oxford and Montgomery 
in 1962.
    Proven to be a versatile and effective workforce, our 
agents have helped to capture escaped felons in New York in 
June of last year. On our borders, we try to innovate and use 
technology that enhances agent effectiveness and keeps them 
safe.
    In 1935, we were advanced enough to install and use two-way 
radios in cars and stations. Today, the advanced technology 
deployed along our borders not only enhances the security of 
our Nation by providing us with increased situational awareness 
of illegal activity, it also significantly increases the safety 
of our front-line agents. While the basic Border Patrol mission 
is to secure the Nation's border from illegal entry of persons 
and goods has not changed in the past 92 years, the operational 
environment in which we work and the threats we face have 
changed significantly.
    Today, our mission includes deterring acts of terrorism, 
detecting and intercepting human drug and weapon smuggling and 
trafficking, and preventing and responding to other criminal 
activity. The effective deployment of fixed and mobile 
technology is critical to the Border Patrol operations. With 
these resources, our front-line agents are better-informed, 
more effective, and safer. There is no doubt that technology is 
a critical factor of the Border Patrol strategic plan, which 
implements a security approach based on risk, and emphasizes 
unity of effort through integrated planning and execution with 
our partners.
    Detection technology extends the visual range and awareness 
of front-line agents. Ground sensors alert agents to movements 
and activity, while mounted cameras and sensors on fixed--on 
aircraft fixed towers and Border Patrol vehicles can be 
controlled remotely to verify a target.
    All of this technology works together, and ultimately 
enables the Border Patrol to gain situational awareness, direct 
a response team to the best interdiction location, and forewarn 
agents of any danger otherwise unknown along the way.
    The Border Patrol continually evaluates our situational 
awareness posture, adjusts our capabilities as required to 
secure our borders. We work closely with our operational 
intelligence and acquisition colleagues within CBP and DHS to 
identify and develop technology, such as tunnel detection, and 
monitoring technology, small unmanned aircraft systems, 
tactical communication upgrades, and border surveillance tools 
tailored for the Southwest Border and northern borders.
    In coordination with the DHS joint requirements process, 
the Border Patrol will continue to use the capability gap 
analysis process to conduct mission analysis and identify 
capability gaps and potential operational requirements over the 
short, medium, and long term.
    With all our border technology, CBP works closely with 
agents on the ground to develop operational requirements, 
conduct testing and evaluation, and obtain user feedback to 
ensure the right tools are applied to the right capability gap.
    Thank you, again, for the opportunity to discuss how 
technology enhances the Border Patrol's capabilities and 
strengthens our efforts in securing the border. I look forward 
to your questions.
    Ms. McSally. Thank you, Mr. Vitiello.
    The Chair now recognizes Major Alles for 5 minutes.

  STATEMENT OF MAJOR GENERAL RANDOLPH D. ``TEX'' ALLES, (RET.-
  USMC), EXECUTIVE ASSISTANT COMMISSIONER, OFFICE OF AIR AND 
  MARINE OPERATIONS, U.S. CUSTOMS AND BORDER PROTECTION, U.S. 
                DEPARTMENT OF HOMELAND SECURITY

    Mr. Alles. Good afternoon, Chairwoman McSally and Ranking 
Member Vela and Members of the committee. It is an honor to 
appear before you today to discuss the critical role of 
technology, and specifically CPB's Air and Marine assets in 
securing our Nation's borders. CBP's Air and Marine Operations, 
or AMOs as we call ourselves is a critical component of the 
CBP's layered border security strategy. AMO's 1,272 law 
enforcement agents operate 243 aircraft and 360 vessels, and 
has sophisticated domain awareness network across the United 
States, Puerto Rico, and the Virgin Islands. AMO's critical 
aerial and maritime missions fall under 4 core competencies: 
Domain awareness, investigation, interdiction, and contingency 
operations and National taskings. AMO is a vital contributor to 
the security of our borders interdicting illicit traffic in the 
air, on the land, and the littoral waters of the United States 
through the coordinated use of integrated Air and Marine 
forces.
    All our highly-specialized law enforcement agents provide 
unique expertise and capability domains in which we operate. 
Since the consolidation of Air and Marine assets within AMO 11 
years ago, we have transformed from a force composed primarily 
of light observation aircraft into a modern air and maritime 
fleet equipped with sophisticated surveillance sensors and 
communication systems. We are working to increase the 
connectivity and networking among all our Air and Marine 
assets. AMO is continuing the efforts to reduce the number of 
our aircraft types and position our assets for highest 
utilization, which will increase both efficiency and 
effectiveness of our operations.
    I would like to take this opportunity to highlight a few of 
our key assets and describe how this technology furthers CBP's 
capability to detect, identify, monitor, and appropriately 
respond to threats in our Nation's borders.
    First, our multi-role enforcement aircraft are highly 
capable and equipped with sophisticated technology systems that 
enable it to be effective over both land and water. These 
aircraft are replacing several older single-mission assets and 
enhance CBP's interdiction and investigative capabilities.
    Second, beyond our borders in the source and transit zone, 
CBP's P-3 long-range aircraft has been instrumental in 
countering narcotic operations, transnational criminal 
organizations, and vessels thousands of miles from the 
homeland. I might mention, they have just completed a rewinging 
of 14 aircraft, a $410 million program which came in under cost 
and ahead of schedule.
    Third, in the maritime environment working in conjunction 
with the aviation assets, our new coastal interceptor vessels 
are physically designed and engineered with the speed 
maneuverability, integrity, and endurance to intercept and 
engage in a variety of suspect noncompliant vessels in offshore 
waters as well as the Great Lakes and on the Northern Border.
    Finally, a vital component of our doing awareness is the 
Intermarine Operations Center. IMOC leverages advanced 
surveillance systems, integrates information from Federal, 
State, local, international, law enforcement, and intelligence 
sources to detect, identify, track, and direct the interdiction 
of suspect criminal use of noncommercial air and maritime 
conveyances approaching, crossing, or operating inside the 
United States--operating inside the borders of United States 
and Puerto Rico.
    We work closely with our operation and acquisition 
colleagues at CBP, including the DHS Science and Technology 
Directorate to identify and develop surveillance and detection 
technology. AMO is also working with Domestic Nuclear Detection 
Office at DHS to develop and test radiological and nuclear 
detection threats beyond--threats aboard our small vessels.
    Chairwoman McSally, and Ranking Member Vela, and 
distinguished Members of the committee, thank you for this 
opportunity to discuss AMO's technology assets, capabilities, 
and efforts in securing our borders. I look forward to your 
questions in a few moments. Thank you.
    Ms. McSally. Thank you, General Alles.
    The Chair now recognizes Mr. Borkowski for 5 minutes.

 STATEMENT OF MARK BORKOWSKI, ASSISTANT COMMISSIONER AND CHIEF 
  ACQUISITION EXECUTIVE, OFFICE OF TECHNOLOGY INNOVATION AND 
     ACQUISITION, U.S. CUSTOMS AND BORDER PROTECTION, U.S. 
                DEPARTMENT OF HOMELAND SECURITY

    Mr. Borkowski. Thank you, Chairwoman McSally, Ranking 
Member Vela, and distinguished Members of the committee. It is 
a pleasure to be back before you.
    As you suggested, Chairwoman McSally, it certainly has been 
a challenging few years, and I share your frustration with the 
delays. The procurement system is very frustrating, I think, to 
all of us. I look forward to a discussion of that.
    When I was last here before you 2 years ago, we were just 
getting to the point where we were awarding contracts, and in 
many cases, there were 2 years of delays in getting to those 
contract awards. A number of reasons for that, some of it is 
cultural, some of it is structural, but that has been a 
continuing frustration. However, since that time, actually, the 
performance on these contracts has been relatively good.
    You cited the IFT, the Integrated Fixed Towers. As you may 
recall, that contract was awarded at a 75 percent cost savings 
compared to our original estimate and continues to perform 
consistently with that, and has performed pretty well against 
its schedule.
    The remote video surveillance system is the other large 
significant program in Arizona. That program also has clicked 
along with--it was awarded at a reduced cost compared to our 
estimate. We have already deployed 4 AORs, the fifth will be 
completed by this year, and it has performed well on its cost.
    The mobile surveillance capability is completely deployed 
to Arizona and is now extending its deployment outside of 
Arizona. That was awarded below its estimated cost and 
performed on cost. In addition, those systems have delivered on 
their performance.
    So I think one of the things I would say is that is as an 
acquisition person, I essentially have 4 degrees of freedom 
that I play with: Cost, schedule, performance, and risk.
    For the most part, I think we have not done well on 
schedule. I would have to acknowledge that. We have failed on 
schedule. We are trying to attack that. I am still looking for 
more ways to do that. But on the cost, schedule, and 
performance on these systems, I actually think we have done 
well once we got them going.
    So Arizona is well under way compared to the baseline. The 
next area of emphasis on the Southwest Border has been Texas. 
Because of the money we saved, we were actually able to free up 
resources to do what our--they started out as pilots with DOD 
reuse, Department of Defense reuse systems. I think the most 
visible of those are the tactical aerostats. We now have 6 
flying in Texas. We are putting up 17 of the towers that are 
associated with those--with cameras and potentially radars in 
areas that, frankly, would not have had technology until 
probably 2018, 2019 because we were able to generate savings, 
and by working with the Department of Defense, we are able to 
get a little more speed in delivery.
    Having said that, though, that is not the long-term plan 
for Texas. The long-term plan for Texas has been remote video 
surveillance systems, mobile video surveillance systems. Those 
contracts are underway. The challenge in Texas has to do with 
environmental land clearances, land acquisition. Those are 
challenges. We are working through those, but that is an 18- to 
24-month problem that we are working through.
    We have gotten tremendous support from Congress on funding 
for that. We are working our way through that.
    Sir, Congressman Vela, with respect to the mobile video 
surveillance systems, those are also, as you suggested, 
designated for Texas. They are very critical there.
    The current contract will provide about 127 of those. The 
protest has been resolved in our favor. The contract is under 
way. We expect to deliver the first 4 of those toward the end 
of this year for testing, and then, over the next 2 years, 
deliver 127 that will be covered under the contract.
    So I think we have made some progress. Am I completely 
satisfied? No. We do have some work to do in terms of, how do 
we handle this very, very slow acquisition process? How do we 
improve that? I look forward to discussions on that.
    Having said that, I do think the programs that we have 
awarded have largely been successful once we have gotten over 
that procurement hump. I look forward to questions going 
forward.
    [The joint prepared statement of Mr. Vitiello, Mr. Alles, 
and Mr. Borkowski follows:]
 Prepared Statement of Ronald Vitiello, Randolph D. ``Tex'' Alles, and 
                             Mark Borkowski
                              May 24, 2016
    Chairwoman McSally, Ranking Member Vela, and distinguished Members 
of the committee. It is a pleasure to appear before you today on behalf 
of U.S. Customs and Border Protection (CBP) to discuss the acquisition 
and deployment of border security technology between our Nation's ports 
of entry (POE).
    Along the more than 5,000 miles of border with Canada, 1,900 miles 
of border with Mexico, and approximately 95,000 miles of shoreline, CBP 
secures our borders and associated airspace and maritime approaches to 
prevent illegal entry of people and goods into the United States. The 
border environment in which CBP works is dynamic and requires continual 
adaptation to respond to emerging threats and changing conditions. We 
appreciate the partnership and support we have received from this 
committee, whose commitment to the security of the American people has 
enabled the continued deployment of advanced technology assets needed 
to secure the border.
    In the acquisition and deployment of border security technology, 
CBP ensures that investments are effective and that procurement 
processes are efficient, transparent, and compliant with Federal law 
and Department of Homeland Security (DHS) policy. With all our 
programs, operations, and activities, we welcome oversight and embrace 
our responsibility as stewards of American taxpayer resources.
    When CBP was formed in 2003, it was an organization comprised of 
components that had different approaches, methods, and policies 
regarding acquisition and management activities. Although our 
operations had been integrated under one mission, CBP, and in a broader 
context DHS, lacked a standardized and unified acquisition structure, 
including governance and oversight, strong requirements development 
process, and centralized resource allocation. In order to strengthen 
and streamline acquisition management throughout the Department, 
Secretary Johnson launched the Unity of Effort initiative, which 
established a more collaborative process for decision making, including 
those that shape acquisition and resource allocation.
    A key element of the Unity of Effort initiative is the 
establishment of the Joint Requirements Council (JRC), designed to 
improve the quality and validity of the Department's requirements 
generation and oversight process. The JRC creates a stronger focus 
earlier in the investment life cycle--at the requirements development 
stage--to better position DHS components, including CBP, to effectively 
and efficiently execute acquisition strategies and budgets that 
ultimately close capability gaps.
    As part of this initiative, CBP is the sponsoring component for DHS 
Joint Task Force West and a participating component in Joint Task Force 
East and Joint Task Force for Investigations. These Joint Task Forces 
are conducting the DHS Southern Border and Approaches Campaign Plan 
(SBAC), launched in early 2015, which put the assets and personnel of 
the Department to use in a combined and strategic way to 
collaboratively plan and execute multi-component DHS operations to 
better protect the border. Aimed at leveraging the range of unique 
Department roles, responsibilities, and capabilities, the Campaign 
enhances our operational capability to address comprehensive threat 
environments in a unified way. Together, the DHS Unity of Effort 
initiative and the Campaign will drive border security investments and 
direct DHS resources in a much more collaborative fashion to address 
the range of threats and challenges, including illegal migration, 
smuggling of illegal drugs, human and arms trafficking, the illicit 
financing of such operations, and threat of terrorist exploitation of 
border vulnerabilities.
    Our testimony today will discuss CBP's technology investments 
between the POEs, highlight some of CBP's deployed border technology 
assets, and describe the agency's path forward to ensure that CBP's 
acquisition strategies and structure is in place to meet the challenge 
of a dynamic border threat environment.
             technology investments between ports of entry
    For CBP, the use of technology in the border environment is an 
invaluable force multiplier to increase situational awareness. Thanks 
to the support of Congress, CBP continues to deploy proven, effective 
technology to strengthen border security operations between the POEs--
in the land, air, and maritime environments. With enhanced surveillance 
capabilities, CBP can improve its situational awareness remotely, 
direct a response team to the best interdiction location, and warn the 
team of any additional danger otherwise unknown along the way. As a 
result, these investments increase CBP's visibility on the border, 
operational capabilities, and the safety of front-line law enforcement 
personnel.
    It is imperative that DHS and CBP promote operational agility by 
leveraging technological advances and innovative practices. A key 
element of CBP's acquisition strategy, innovation is not simply the 
process of buying the newest technology; rather, it is the product of a 
collaborative culture that supports creativity, optimizes resource 
allocation and pursues the greatest return on investment and delivery 
of prioritized operational capabilities.
    This committee is familiar with the outcome of CBP's SBInet 
program, an earlier component of the DHS Secure Border Initiative (SBI) 
that was designed as a comprehensive and integrated technology program 
to provide persistent surveillance across U.S. borders. The program 
experienced significant schedule delays and cost overruns because it 
did not allow necessary flexibility to adapt to differing needs in the 
various regions of the border. SBInet eventually delivered systems to 2 
Areas of Responsibility (AORs) in Arizona that continue to operate 
successfully. Nevertheless, DHS cancelled SBInet on January 14, 2011, 
because it was too costly and the idea of one, all-encompassing program 
was unnecessarily complex for border technology.
    Since 2011, DHS and CBP have approached our border technology 
requirements, ranging from small to large, simple to complex, in more 
manageable pieces tailored to specific regions on the border. For 
example, CBP's Arizona Technology Plan (ATP), which focuses on 
technology that specifically meets the needs of border conditions in 
Arizona, is the first of many phases in a multi-year effort to provide 
a cost-effective mix of fixed and mobile technology across the 
Southwest Border. The ATP acquisition strategy leverages ``non-
developmental'' technology to the greatest extent possible, providing 
more flexible, less risky, and less costly procurements and 
deployments. Using the non-developmental approach, most of the programs 
within the ATP are on contract and many systems have already been 
deployed. Although it is too early to declare complete success, the 
early indications of the acquisition strategy are quite positive and, 
in some cases, far exceed our expectations.
    There is no one-size-fits-all approach to border security 
technology acquisition. CBP's Office of Technology Innovation and 
Acquisition (OTIA) works collaboratively with the U.S. Border Patrol 
(USBP) and Air and Marine Operations (AMO) to develop requirements, 
test and evaluate technology, and deploy effective technology in 
support of CBP's border security mission.
Fixed, Persistent Surveillance
    Integrated Fixed Tower (IFT) systems are one of the technologies 
that are in the process of being acquired and deployed to the Southwest 
Border in Arizona as part of the ATP. IFTs are fixed surveillance 
assets that provide long-range persistent surveillance. These systems 
cover very large areas and incorporate a Common Operating Picture 
(COP), a central hub that receives data from one or multiple tower 
units. The tower systems automatically detect and track items of 
interest, and provide the COP operator(s) with the data, video, and 
geospatial location of selected items of interest to identify and 
classify them. In February of this year, the USBP conditionally 
accepted the IFT system and is currently looking to develop 
improvements for the already-deployed system.
    Remote Video Surveillance Systems (RVSS) are another fixed 
technology asset used in select areas along the Southwest and Northern 
borders. These systems provide short-, medium-, and long-range 
persistent surveillance mounted on stand-alone towers, or other 
structures. The RVSS uses cameras, radio, and microwave transmitters to 
send video to a control room and enables a control room operator to 
remotely detect, identify, classify, and track targets using the video 
feed.
    Without fixed-system technology such as IFT and RVSS, the Border 
Patrol's ability to detect, identify, classify, and track illicit 
activity would be decreased. Fixed systems provide line-of-sight 
surveillance coverage to efficiently detect incursions in flat terrain. 
The Border Patrol integrates mobile and portable systems to address 
areas where rugged terrain and dense ground cover may allow adversaries 
to penetrate through blind spots or avoid the coverage areas of fixed 
systems.
Mobile Capabilities
    The border environment between the ports of entry is dynamic. 
Working in conjunction with fixed surveillance assets, CBP's mobile 
technology assets provide flexibility and agility to adapt to changing 
border conditions and threats. Mobile technologies are deployed in 
California, Arizona, New Mexico, and Texas as well as several Northern 
Border locations. Along the Southwest Border, Mobile Surveillance 
Capability (MSC) systems provide long-range mobile surveillance and 
consist of a suite of radar and camera sensors mounted on Border Patrol 
vehicles. An agent deploys with the vehicle to operate the system, 
which automatically detects and tracks items of interest and provides 
the agent/operator with data and video of the observed subject.
    Mobile Vehicle Surveillance Systems (MVSS) provide short- and 
medium-range mobile surveillance equipment mounted on telescoping masts 
and consist of a suite of camera sensors mounted on Border Patrol 
vehicles. An agent deploys with the system, which detects, tracks, 
identifies, and classifies items of interest using the video feed. The 
agent/operator observes activity on the video monitor to detect 
intrusions and assist agents/officers in responding to those 
intrusions.
    Another system, which does not need to be mounted to a vehicle, is 
the Agent Portable Surveillance System (APSS). These systems provide 
medium-range mobile surveillance, and are transported by 2 or 3 agents 
and mounted on a tripod. Two agents remain on-site, one to operate the 
system, which automatically detects and tracks items of interest and 
provides the agent/operator with data and video of selected items of 
interest.
    In some areas along the Southwest Border, CBP also uses Unattended 
Ground Sensors (UGS), which provide short-range persistent 
surveillance. These sensors support our capability to detect, and to a 
limited extent, track, and identify subjects. Sensor capabilities 
include seismic, passive infrared, acoustic, contact closure, and 
magnetic, although these capabilities are not necessarily available in 
all deployed UGS. When a ground sensor is activated, an alarm is 
communicated to a data decoder that translates the sensor's activation 
data to a centralized computer system in an operations center. Some UGS 
are used in conjunction with Imaging Sensors (IS). The UGS/IS include 
an imaging capability to transmit images or video back to the 
operations center. As with UGS, UGS/IS are monitored in a centralized 
system and geospatially tracked.
    CBP's Tactical Aerostats and Re-locatable Towers program, 
originally part of the Department of Defense (DOD) Re-use program, uses 
a mix of aerostats, towers, cameras, and radars to provide Border 
Patrol with increased situational awareness through an advanced 
surveillance capability over a wide area. This capability has proven to 
be a vital asset in increasing CBP's ability to detect, identify, 
classify, and track activity.
    The absence of mobile surveillance technology would limit the 
Border Patrol's ability to detect, identify, classify, track, and 
rapidly respond to illicit activity. These technologies not only 
provide significant security benefits and multiply the capabilities of 
law enforcement personnel to detect, identify, and respond to 
suspicious activity, but they also assist with public safety along the 
border. Mobile surveillance technology systems enable agents to 
position the technology where it is needed at a specific moment, extend 
our observational capabilities, and increase the accuracy and speed of 
our response.
    Technology is critical to border security operations. A tailored 
blend of fixed, mobile, and portable surveillance systems that 
complement one another increases the Border Patrol's effectiveness in 
targeting a response to high-risk areas, enabling rapid response 
strategies to maximize limited manpower, and adjusting to seasonal/
periodic traffic patterns.
Air and Marine Capabilities
    AMO increases CBP's situational awareness, enhances its detection 
and interdiction capabilities, and extends our border security zones, 
offering greater capacity to stop threats prior to reaching the 
Nation's shores. Through the use of coordinated and integrated 
surveillance capabilities--including aviation, marine, tethered 
aerostats, and integrated ground-based radars--AMO detects, interdicts, 
and prevents acts of terrorism and the unlawful movement of people, 
illegal drugs, and other contraband toward or across the borders of the 
United States. These assets provide multi-domain awareness for our 
partners across the Department, as well as critical aerial and maritime 
surveillance, interdiction, and operational assistance to our ground 
personnel.
    AMO's maritime assets are tailored to the conditions of the threat 
environment in which we operate, and equipped with the capabilities 
required to interdict attempted illicit smuggling of drugs and 
undocumented aliens. Often there is little time to interdict inbound 
suspect vessels and AMO has honed its maritime border security response 
capability around rapid and effective interception, pursuit, and 
interdiction of these craft. AMO employs high-speed Coastal Interceptor 
Vessels (CIV) that are specifically designed and engineered with the 
speed, maneuverability, integrity, and endurance to intercept and 
engage a variety of suspect non-compliant vessels in offshore waters, 
as well as the Great Lakes on the Northern Border.
    CBP's aerial surveillance capabilities are enhanced through recent 
investments and deployments of Multi-Role Enforcement Aircraft (MEA). 
The MEA has a multi-mode radar for use over water and land, an electro-
optical/infrared camera system, and a satellite communications system. 
The MEA replaces several older, single-mission assets and remains the 
only asset customized to provide maritime support in the near-shore 
customs waters. With its sophisticated technology systems, the MEA is a 
highly capable, twin-engine aircraft and a critical investment in CBP's 
maritime, land, and aerial surveillance capabilities.
    P-3 Long-Range Trackers and Airborne Early Warning Aircraft provide 
critical detection and interdiction capability in both the air and 
marine environment. Sophisticated sensors and high-endurance capability 
greatly increase CBP's range to counter illicit trafficking. AMO P-3s 
are an integral part of the successful counter-narcotic missions 
operating in coordination with the Joint Interagency Task Force--South. 
The P-3s patrol in a 42-million-square-mile area that includes more 
than 41 nations, the Pacific Ocean, Gulf of Mexico, Caribbean Sea, and 
seaboard approaches to the United States. In fiscal year 2015, CBP's P-
3s operational efforts led to the total seizure or disruption of more 
than 204,464 pounds of cocaine with an estimated street value of $15.3 
billion.
    Another important asset is the DHC-8 Maritime Patrol Aircraft 
(MPA). It bridges the gap between the strategic P-3 and Unmanned 
Aircraft System (UAS) assets and the smaller assets providing support 
in the littoral waters. This tool allows AMO an unprecedented level of 
situational awareness in the Gulf of Mexico and the Caribbean.
    AMO's tactical resources have also received a number of 
technological upgrades to add to their utility. The AS-350 helicopter 
has received avionics upgrades to allow the operators to focus more of 
their attention on the mission, making them more effective. AMO has 
also added detection technology to its fixed-wing light observation 
aircraft, greatly increasing its tactical capabilities.
    Additionally, UAS are increasingly instrumental in CBP's layered 
and integrated approach to border security. The UAS consists of an 
unmanned aircraft, sensors, communication packages, pilots, and ground 
control operators. UAS are used to meet surveillance and other mission 
requirements along the Southwest Border, Northern Border, Southeast 
coastal area, and in the drug source and transit zones. Four of CBP's 
UAS are equipped with Vehicle and Dismount Exploitation Radar (VADER) 
sensor systems, which are capable of detecting human movement along the 
ground and increase CBP aerial surveillance, enforcement, and security 
to prevent potential threats from illegally entering the United States. 
Since 2012, VADER has detected over 40,000 people moving across the 
Southwest Border. Since 2006, this versatile platform has been credited 
with interdicting/disrupting 13,144 pounds of cocaine and 321,330 
pounds of marijuana worth an estimated $1.8 billion. The UAS program 
has achieved over 35,900 flight hours since program inception in fiscal 
year 2006.
    UAS and P-3 aircraft are equipped with technology that provides 
full-motion video capture and provides real-time and forensic analysis. 
This advanced detection and communication system enables CBP to 
disseminate images and other sensor data to operational users in real 
time, increasing response effectiveness and speed.
    Perhaps the most important advancements come in the area of data 
integration and exploitation. Downlink technology, paired with the 
BigPipe system, allows AMO to provide a video feed and situational 
awareness to its law enforcement partners in real time. In addition, 
the Minotaur mission integration system will allow multiple aircraft to 
share information from multiple sources, providing a never-before-seen 
level of air, land, and sea domain awareness. As the Minotaur system 
evolves, it will provide even greater awareness for a greater number of 
users.
    AMO also combats airborne and maritime smuggling with an integrated 
long-range radar architecture comprised of ground-based radars and 
elevated radars deployed on tethered aerostats. AMO, in partnership 
with DOD, operates and maintains a large network of terrestrial radars 
to establish and maintain wide-area, persistent surveillance of 
commercial and non-commercial aircraft flying toward, arriving at, or 
passing through our borders. With the awareness generated by this 
sensor network, CBP can detect and respond to air and maritime movement 
anomalies that could pose a threat to our homeland, including 
trafficking organizations attempting to deliver contraband across the 
border by flying beneath the radar field of view of our ground-based 
radars.
    AMO's Tethered Aerostat Radar System (TARS) monitors the low-
altitude approaches to the United States and denies this airspace for 
illicit smuggling. With 8 aerostat sites--6 along the Southwest Border, 
1 in the Florida Keys, and 1 in Puerto Rico--the TARS' elevated sensor 
mitigates the effect of the curvature of the earth and terrain-masking 
limitations associated with ground-based radars, enabling maximum long-
range radar detection capabilities. In fiscal years 2014 and 2015 TARS 
recorded nearly 1,000 suspected cross-border attempts, approximately 85 
percent of all Southwest Border radar detections.
    A vital component of DHS's domain awareness capabilities, CBP's Air 
and Marine Operations Center (AMOC) integrates surveillance 
capabilities and coordinates with other CBP operational components, 
including the USBP, Federal, and international partners \1\ to detect, 
identify, track, and support interdiction of suspect aviation and 
maritime activity in the approaches to U.S. borders, at the borders, 
and within the interior of the United States. Coordinating with 
extensive law enforcement and intelligence databases and communication 
networks, AMOC's command-and-control operational system, the Air and 
Marine Operations Surveillance System (AMOSS), provides a single 
display that is capable of processing up to 700 individual sensor feeds 
and tracking over 50,000 individual targets simultaneously. The 8 TARS 
sites represent approximately 2 percent of the total available radars 
in AMOSS, yet were able to account for detecting 53 percent of all 
suspect target detections.
---------------------------------------------------------------------------
    \1\ AMOC partners include the Federal Aviation Administration 
(FAA), the Department of Defense (including the North American 
Aerospace Defense Command (NORAD)), and the governments of Mexico, 
Canada, and the Bahamas.
---------------------------------------------------------------------------
    As we continue to deploy border surveillance technology, 
particularly along the Southwest Border, these investments in fixed and 
mobile technology, as well as enhancements of domain awareness 
capabilities provided by the AMOC allow CBP the flexibility to shift 
more officers and agents from detection duties to interdiction of 
illegal activities on our borders.
               cbp's acquisition strategy and realignment
    Since its establishment in 2010, OTIA has led CBP's acquisition 
oversight and coordination efforts and has been recognized as the 
primary point of contact for CBP acquisition activities. While CBP's 
intent was for all mission offices' acquisition program management, 
requirement development, and oversight to be integrated and 
consolidated under OTIA, because of the broad scope of CBP's mission 
and diversity of operating environments, the management of several of 
CBP's large acquisition programs were not migrated to OTIA. However, in 
the past 5 years, OTIA has aligned CBP's acquisition policies, 
procedures, and practices with DHS Department standards, consolidated 
CBP's acquisition governance and accountability structure, brought 
multiple high-impact programs back on track, and has contracted, 
deployed and sustained critical border security technology assets.
    In 2015, as part of on-going headquarters realignment efforts, CBP 
Commissioner R. Gil Kerlikowske engaged the Defense Acquisition 
University (DAU) to provide a review and recommendations of the state 
of CBP acquisition management. The key DAU alignment-related findings 
and recommendations included clarifying and strengthening the Component 
Acquisition Executive (CAE) independent oversight authority on behalf 
of the Commissioner; separating OTIA's key roles of oversight, 
requirements, and program management; and aligning programs and 
accountability with operational offices. To ensure that these 
recommended improvements are possible, and to ensure CBP's acquisition 
construct aligns with the DHS acquisition oversight framework, CBP is 
in the process of redirecting acquisition, program, and requirements 
management responsibilities.
    This realignment is the next step forward in building off the 
achievements OTIA has made possible, including the standardization of 
acquisition policies, processes, and oversight and the development of 
acquisition expertise in the CBP workforce. The separation and 
redistribution of CBP's acquisition functions--including requirements 
development and program management--from OTIA to other areas within 
CBP's operational structure, increases acquisition effectiveness and 
efficiency, and strengthens agency oversight of acquisition activities. 
CBP's requirements function will be managed under the Operational 
Support (OS) division, where technical experts will work directly with 
front-line operators in the execution of a holistic, strategy-led 
requirements development program. The execution of acquisition programs 
will be aligned directly under CBP's operational components--USBP, AMO, 
and the Office of Field Operations--to tighten the link between 
acquisition programs, users, and funding. Acquisition program 
oversight, policy and procedures promulgation, and acquisition 
workforce management--under the leadership of the Chief Acquisition 
Officer--will be part of CBP's Enterprise Services (ES) division to 
create an even stronger alignment with the DHS acquisition framework. 
The realignment will result in stronger management much earlier in the 
acquisition investment life cycle, increased oversight, as well as 
better integration of CBP personnel and operational expertise.
    CBP works closely with other elements of DHS headquarters and 
fellow Department components to ensure strategy-led, operationally-
informed requirements development. In coordination with the DHS joint 
requirements process, the USBP and AMO will continue to use the 
Capability Gap Analysis Process (CGAP) to conduct mission analysis and 
identify capability gaps. From this analysis, OS will work with USBP 
and AMO to identify and plan operational requirements over the short-, 
mid-, and long-term and to identify potential solutions, which may (or 
may not) include fencing, roads, or other solutions depending on the 
nature, scope, severity, and geographic location of a given capability 
gap. AMO began C-GAP in October 2015 using best practices and lessons 
learned from the USBP process. The AMO process examines aviation and 
maritime mission spaces and capabilities, while taking advantage of the 
analytical models and processes the USBP has established. AMO and USBP 
gap analyses inform the OS-led requirements process and are prioritized 
and linked to Department activities and strategies. With all 
technology, CBP works closely with agents on the ground to develop 
operational requirements, conduct testing and evaluation, and obtain 
user feedback to ensure that the right tool is applied to the right 
capability gap. Terrain, threat, socio-economic, and political 
considerations vary greatly across sectors and regions, making a ``one 
size fits all'' approach ineffective.
    CBP works closely with the DHS Science & Technology (S&T) 
Directorate to identify and develop technology to improve our 
surveillance and detection capabilities along our land and maritime 
borders. This includes investments in tunnel detection and tunnel 
activity monitoring technology; tactical communication upgrades, Small 
Unmanned Aircraft Systems (SUAS); low-flying aircraft detection and 
tracking systems, land and maritime data integration/data fusion 
capabilities, and border surveillance tools tailored to the Southwest 
and Northern Border, including unattended ground sensors/tripwires, 
upgrades for mobile Surveillance Systems, slash camera poles, and wide-
area surveillance.
    In addition to collaboration with our DHS partners, as part of 
CBP's efforts to seek innovative ways to acquire and use technology, 
CBP formed a partnership with DOD to identify and reuse excess DOD 
technology. To date, CBP has acquired several types of technology, 
including thermal imaging equipment, night vision equipment, and 
tactical aerostat systems, which increase CBP's situational awareness 
and operational flexibility in responding to border threats. We will 
continue to pursue additional opportunities to leverage DOD excess 
equipment. We will do this in a sustainable way by considering the full 
life-cycle costs of the DOD equipment we are considering before 
acquiring it.
                               conclusion
    Technology is a primary driver of all land, maritime, and air 
domain awareness. The information obtained from fixed and mobile 
surveillance systems, ground sensors, imaging systems, and other 
advanced technologies enhances domain awareness, informs situational 
awareness, and better enables CBP to monitor, detect, identify, and 
appropriately respond to threats in the Nation's border regions.
    As we look to sustain and recapitalize our border security 
technology assets, we will look to the DHS joint requirement process to 
validate our mission requirements and the strengthened DHS budget and 
acquisition processes to ensure we have the funding and sustainment to 
operate existing equipment to maximum capacity and that we receive new 
assets with the capabilities we require on time and on budget.
    While there is always more work to do, CBP has made significant 
strides to improve acquisition planning, management, and execution. 
These efforts have produced more effective governance and significant 
improvements to current and future acquisitions. Going forward, CBP 
will work with its DHS management partners to improve oversight; 
develop and increase our acquisition workforce; and improve the 
quality, timeliness, and transparency of CBP contracting processes.
    Knit together by the DHS SBAC and the joint requirements processes, 
CBP's acquisition and rapid deployment of technology allows us to 
achieve our strategic and operational objectives in effectively and 
efficiently securing U.S. borders and the approaches.
    Chairwoman McSally, Ranking Member Vela, thank you for the 
opportunity to testify today. We look forward to your questions.

    Ms. McSally. Thank you, Mr. Borkowski.
    The Chair now recognizes Ms. Gambler for 5 minutes.

 STATEMENT OF REBECCA GAMBLER, DIRECTOR, HOMELAND SECURITY AND 
         JUSTICE, U.S. GOVERNMENT ACCOUNTABILITY OFFICE

    Ms. Gambler. Good afternoon, Chairwoman McSally, Ranking 
Member Vela, and Members of the subcommittee. I appreciate the 
opportunity to testify at today's hearing to discuss GAO's work 
reviewing DHS's efforts to acquire and deploy various 
technologies and other assets along U.S. borders. DHS has 
employed a variety of assets in its efforts to secure the 
Southwest Border, including various land-based surveillance 
technologies, unmanned aerial systems, or UAS, and tactical 
aerostats.
    My remarks today will summarize some of GAO's past work on 
management and oversight of various surveillance technologies. 
I will also share some preliminary observations from our on-
going work for this subcommittee reviewing CBP's use of UAS and 
tactical aerostats.
    First, GAO has issued numerous reports on DHS's efforts to 
plan for, deploy, and manage land-based surveillance 
technologies under the former Secure Border Initiative and the 
current Arizona Border Surveillance Technology Plan.
    CBP has made progress in deploying programs under the plan, 
including fixed and mobile surveillance systems, agent portable 
devices, and ground sensors, and these technologies have aided 
CBP's border security efforts. However, we have also reported 
that CBP could do more to strengthen its management of the plan 
and technology programs and better assess the contributions of 
surveillance technologies to apprehensions and seizures.
    For example, CBP has previously experienced delays in some 
of its surveillance technology programs, and CBP's planned 
dates for initial and full operational capability for the 
Integrated Fixed Towers, for example, have slipped by several 
years.
    We have previously reviewed CBP's schedules and life-cycle 
cost estimates for the highest-cost programs under the plan, 
and compared them to best practices. Overall, the schedules and 
estimates for the plans programs reflected some, but not all 
best practices, and we found that CBP could take further action 
to better ensure the reliability of its schedules and cost 
estimates by more fully applying those best practices.
    CBP has taken steps towards addressing our recommendations 
in these areas, such as recently providing us with updated 
schedules for some of the planned programs, and we will be 
reviewing them going forward to determine the extent to which 
they address our recommendation.
    Further, CBP has identified the mission benefits of its 
surveillance technologies such as improved situational 
awareness and agent safety. CBP has also begun requiring Border 
Patrol to record data within its database on whether or not an 
asset, such as a camera, assisted in apprehension or seizure. 
These are positive steps toward helping CBP assess the 
contributions of its surveillance technologies to border 
security. However, CBP needs to develop and implement 
performance measures and analyzing data it is now collecting to 
be able to fully assess the contributions of its technologies 
to border security.
    Second, with regard to UAS and tactical aerostats, based on 
our on-going work for the subcommittee, CBP is currently 
operating 9 Predator B aircraft from 4 locations across the 
country. These aircraft may be equipped with video and radar 
sensors, and they are used for a variety of functions, 
including patrol missions to support Border Patrol and other 
law enforcement agencies and to monitor natural disasters, like 
wildfires or floods.
    CBP operates the aircraft in designated airspace, and more 
than 80 percent of flight hours from fiscal years 2011 to 2015 
were associated with designated air space along border and 
coastal areas.
    CBP also operates 6 tactical aerostats along the border in 
South Texas, as Mr. Borkowski mentioned, and these aerostats 
assist Border Patrol in apprehension and seizures.
    CBP's use of both UAS and tactical aerostat can be affected 
by various factors, such as airspace access and weather.
    In closing, we are continuing to examine CBP's use of UAS, 
tactical aerostats, and other assets and technologies as part 
of our on-going work. We will also continue to follow up on 
actions taken by CBP in response to our recommendations for 
improving management and measurement of technologies deployed 
under the Arizona Border Surveillance Technology Plan,
    This concludes my oral statement, and I am happy to answer 
any questions Members may have.
    [The prepared statement of Ms. Gambler follows:]
                 Prepared Statement of Rebecca Gambler
                              May 24, 2016
                             gao highlights
    Highlights of GAO-16-671T, a testimony before the Subcommittee on 
Border and Maritime Security, Committee on Homeland Security, House of 
Representatives.
Why GAO Did This Study
    CBP employs surveillance technologies, UAS, and other assets to 
help secure the border. For example, in January 2011, CBP developed the 
Arizona Border Surveillance Technology Plan, which includes 7 
acquisition programs related to fixed and mobile surveillance systems, 
among other assets. CBP has also deployed UAS, including Predator B 
aircraft, as well as tactical aerostats to help secure the border. In 
recent years, GAO has reported on a variety of CBP border security 
programs and operations.
    This statement addresses: (1) GAO findings on DHS's efforts to 
implement the Arizona Border Surveillance Technology Plan and (2) 
preliminary observations related to GAO's on-going work on CBP's use of 
UAS and tactical aerostats for border security. This statement is based 
on GAO products issued from November 2011 through April 2016, along 
with selected updates conducted in May 2016. For on-going work related 
to UAS, GAO reviewed CBP documents and analyzed Predator B flight-hour 
data from fiscal years 2011 through 2015, the time period when all 
Predator B centers became operational. GAO also conducted site visits 
in Texas and Arizona to view operation of Predator B aircraft and 
tactical aerostats and interviewed CBP officials responsible for these 
operations.
What GAO Recommends
    GAO has previously made recommendations to DHS to improve its 
management of plans and programs for surveillance technologies and DHS 
generally agreed.
border security.--dhs surveillance technology, unmanned aerial systems 
                            and other assets
What GAO Found
    GAO reported in March 2014 and April 2015 that U.S. Customs and 
Border Protection (CBP), within the Department of Homeland Security 
(DHS), had made progress in deploying programs under the Arizona Border 
Surveillance Technology Plan (the Plan), but could take additional 
actions to strengthen its management of the Plan and its related 
programs. Specifically, in March 2014 GAO reported that CBP's schedules 
and life-cycle cost estimates for the Plan and its 3 highest-cost 
programs--which represented 97 percent of the Plan's total estimated 
cost--met some but not all best practices. GAO recommended that CBP 
ensure that its schedules and cost estimates more fully address best 
practices, such as validating cost estimates with independent 
estimates, and DHS concurred. As of May 2016, CBP has initiated or 
completed deployment of technology for each of the 3 highest-cost 
programs under the Plan, and reported updating some program schedules 
and cost estimates. For example, in May 2016, CBP provided GAO with 
complete schedules for 2 of the programs, and GAO will be reviewing 
them to determine the extent to which they address GAO's 
recommendation. GAO also reported in March 2014 that CBP had identified 
mission benefits of technologies under the Plan, such as improved 
situational awareness, but had not developed key attributes for 
performance metrics for all technologies, as GAO recommended in 
November 2011. As of May 2015, CBP had identified a set of potential 
key attributes for performance metrics for deployed technologies and 
expected to complete its development of baselines for measures by the 
end of 2015. In March 2016, GAO reported that CBP was adjusting the 
completion date to incorporate pending test and evaluation results for 
recently-deployed technologies under the Plan.
    GAO's on-going work on CBP's use of unmanned aerial systems (UAS) 
for border security shows that CBP operates 9 Predator B aircraft in 
U.S. airspace in accordance with Federal Aviation Administration (FAA) 
requirements. Specifically, CBP's Air and Marine Operations operates 
the aircraft in accordance with FAA certificates of waiver or 
authorization for a variety of activities, such as training flights and 
patrol missions to support the U.S. Border Patrol's (Border Patrol) 
efforts to detect and apprehend individuals illegally crossing into the 
United States between ports of entry. Predator B aircraft are currently 
equipped with a combination of video and radar sensors that provide 
information on cross-border illegal activities to supported agencies. 
CBP data show that over 80 percent of Predator B flight hours were in 
airspace encompassing border and coastal areas from fiscal years 2011 
through 2015. CBP officials stated that airspace access and hazardous 
weather can affect CBP's ability to utilize Predator B aircraft for 
border security activities. GAO's on-going work shows that CBP has 
deployed 6 tactical aerostats--relocatable unmanned buoyant craft 
tethered to the ground and equipped with cameras for capturing full-
motion video--along the U.S.-Mexico border in south Texas to support 
Border Patrol. CBP operates 3 types of tactical aerostats, which vary 
in size and altitude of operation. CBP officials reported that airspace 
access, hazardous weather, and real estate (e.g., access to private 
property) can affect CBP's ability to deploy and utilize tactical 
aerostats. Border Patrol has taken actions to track the contribution of 
tactical aerostats to its mission activities.
    Chairwoman McSally, Ranking Member Vela, and Members of the 
subcommittee: I am pleased to be here today to discuss the Department 
of Homeland Security's (DHS) efforts to acquire and deploy various 
technology and assets to secure U.S. borders. Within DHS, U.S. Customs 
and Border Protection's (CBP) U.S. Border Patrol (Border Patrol) is the 
Federal agency with primary responsibility for securing the National 
borders between U.S. ports of entry (POE).\1\ CBP's Air and Marine 
Operations (AMO) has primary responsibility for detecting, 
interdicting, and preventing acts of terrorism and the unlawful 
movement of people, illegal drugs, and other contraband toward or 
across U.S. borders utilizing aviation and maritime assets. In the last 
3 fiscal years, over 70 percent of all annual apprehensions of illegal 
entrants by Border Patrol have occurred along the Arizona and south 
Texas borders.\2\ Seizures of marijuana and cocaine (in pounds) along 
the Arizona and south Texas borders reported by Border Patrol, as a 
percentage of all annual seizures, has ranged between 88 to 91 and 24 
to 55 percent over the last 3 years, respectively.\3\
---------------------------------------------------------------------------
    \1\ Ports of entry are facilities that provide for the controlled 
entry into or departure from the United States. Specifically, a port of 
entry is any officially designated location (seaport, airport, or land 
border location) where DHS officers or employees are assigned to clear 
passengers and merchandise, collect duties, and enforce customs laws, 
and where DHS officers inspect persons applying for admission into the 
United States pursuant to U.S. immigration law.
    \2\ These apprehensions were reported by CBP for fiscal years 2013 
through 2015 in the Tucson, Laredo, and Rio Grande Valley Border Patrol 
sectors.
    \3\ These seizures of marijuana and cocaine (in pounds) were 
reported by CBP for fiscal years 2013 through 2015 in the Tucson, 
Laredo, and Rio Grande Valley Border Patrol sectors.
---------------------------------------------------------------------------
    DHS has employed a variety of technology and assets to assist with 
its efforts to secure the border. For example, in November 2005, DHS 
announced the launch of the Secure Border Initiative (SBI) program, 
which was responsible for developing a comprehensive border protection 
system using technology, known as the Secure Border Initiative Network 
(SBInet). In January 2011, in response to internal and external 
assessments that identified concerns regarding the performance, cost, 
and schedule for implementing the systems, the Secretary of Homeland 
Security announced the cancellation of further procurements of SBInet 
systems. After the cancellation of SBInet, CBP developed the Arizona 
Border Surveillance Technology Plan (the Plan), in January 2011, which 
includes a mix of radars, sensors, and cameras to help provide security 
for the Arizona border to support Border Patrol. Additionally, AMO 
operates a fleet of air and marine assets in support of Federal border 
security efforts, including surveillance through Predator B unmanned 
aerial systems (UAS).\4\ CBP also operates tactical aerostats along the 
border, which are relocatable unmanned buoyant craft tethered to the 
ground and equipped with surveillance technologies.
---------------------------------------------------------------------------
    \4\ CBP uses the term ``unmanned aircraft systems'' for these 
assets. A UAS is composed of a remotely piloted aircraft, a ground 
control station, a digital network, and other ground support equipment 
and personnel required to operate and maintain the system.
---------------------------------------------------------------------------
    Over the years, we have reported on the progress and challenges DHS 
faces in implementing its border security efforts. My statement 
discusses our findings on: (1) DHS's efforts to implement the Arizona 
Border Surveillance Technology Plan and (2) preliminary observations 
related to our on-going work for this subcommittee on the use of UAS 
and tactical aerostats for border security.
    This statement is based on reports and testimonies we issued from 
2011 through April 2016 that examined DHS efforts to secure the U.S. 
border. It also includes selected updates we conducted in May 2016 on 
DHS's efforts to address our previous recommendations related to its 
Arizona Border Surveillance Technology Plan. Our reports and 
testimonies incorporated information we obtained and analyzed from 
officials from various DHS components. More detailed information about 
our scope and methodology can be found in our reports and testimonies. 
For the updates on our Arizona Border Surveillance Technology Plan 
work, we reviewed documents from DHS on actions it has taken to address 
findings and recommendations made in our prior reports on which this 
statement is based.
    For on-going work related to UAS, we analyzed CBP policies, 
reports, requirements, and Predator B flight-hour data from fiscal year 
2011 through 2015, covering the time period when all Predator B centers 
became operational. We also interviewed CBP officials responsible for 
Predator B and tactical aerostat operations. To assess the reliability 
of Predator B flight hour data, we reviewed guidance for reporting 
flight hours, interviewed CBP officials about their policies and 
procedures related to tracking flight hours, and compared monthly 
report data with data from other CBP flight hour reports. We found the 
data were sufficiently reliable for the purposes of reporting how CBP 
allocates its Predator B flight hours. As part of our on-going work, we 
also conducted site visits to Arizona in February 2016 and south Texas 
in March 2016 where we observed Predator B and tactical aerostat 
operations and interviewed CBP officials that operate and utilize these 
assets.
    We conducted our past and on-going work in accordance with 
generally accepted Government auditing standards. Those standards 
require that we plan and perform the audit to obtain sufficient, 
appropriate evidence to provide a reasonable basis for our findings and 
conclusions based on our audit objectives. We believe that the evidence 
obtained provides a reasonable basis for our findings and conclusions 
based on our audit objectives.
 cbp has made progress in implementing the arizona border surveillance 
   technology plan, but could take additional actions to strengthen 
                         management of the plan
CBP Has Initiated or Completed Deployment of Technologies Under the 
        Plan and Has Taken Actions To Update Program Schedules and Cost 
        Estimates
    In March 2014 and April 2015, we reported that CBP had made 
progress in deploying programs under the Arizona Border Surveillance 
Technology Plan, but that CBP could take additional action to 
strengthen its management of the Plan and the Plan's programs.\5\ As of 
May 2016, CBP has initiated or completed deployment of technology to 
Arizona for each of the programs under the Plan.\6\ Additionally, as 
discussed further below, CBP has reported taking steps to update 
program schedules and life-cycle cost estimates for the 3 highest-cost 
programs under the Plan. For example, in May 2016, CBP provided us with 
complete schedules for 2 of the programs, and we will be reviewing them 
to determine the extent to which they address our recommendation.
---------------------------------------------------------------------------
    \5\ GAO, Arizona Border Surveillance Technology Plan: Additional 
Actions Needed to Strengthen Management and Assess Effectiveness, GAO-
14-368 (Washington, DC: Mar. 3, 2014), and Homeland Security 
Acquisitions: Major Program Assessments Reveal Actions Needed to 
Improve Accountability, GAO-15-171SP (Washington, DC: Apr. 22, 2015).
    \6\ The Plan's 7 acquisition programs include fixed and mobile 
surveillance systems, agent portable devices, and ground sensors. Its 3 
highest-cost programs, which represent 97 percent of the Plan's 
estimated cost are the Integrated Fixed Tower (IFT), Remote Video 
Surveillance System (RVSS), and Mobile Surveillance Capability (MSC). 
The IFT consists of towers with, among other things, ground 
surveillance radars and surveillance cameras mounted on fixed (that is, 
stationary) towers. The RVSS includes multiple color and infrared 
cameras mounted on monopoles, lattice towers, and buildings and differs 
from the IFT in, among other things, the RVSS does not include radars. 
The MSC is a stand-alone, truck-mounted suite of radar and cameras that 
provides a display within the cab of the truck.
---------------------------------------------------------------------------
    In March 2014, we found that CBP had a schedule for deployment of 
each of the Plan's 7 programs, and that 4 of the programs would not 
meet their originally-planned completion dates. We also found that some 
of the programs had experienced delays relative to their baseline 
schedules, as of March 2013.\7\ Further, in our March 2016 assessment 
of DHS's major acquisitions programs,\8\ we reported on the status of 
the Plan's Integrated Fixed Tower (IFT) program, noting that from March 
2012 to January 2016, the program's initial and full operational 
capability dates had slipped.\9\ Specifically, we reported that the 
initial operational capability date had slipped from the end of 
September 2013 to the end of September 2015, and the full operational 
capability to the end of September 2020. We also reported that this 
slippage in initial operational capability dates had contributed to 
slippage in the IFT's full operational capability--primarily as a 
result of funding shortfalls--and that the IFT program continued to 
face significant funding shortfalls from fiscal year 2016 to fiscal 
year 2020.
---------------------------------------------------------------------------
    \7\ The baseline schedule is to represent the original 
configuration of the program plan and to signify the consensus of all 
stakeholders regarding the required sequence of events, resource 
assignments, and acceptable dates for key deliverables. The current 
schedule is to represent the actual plan to date.
    \8\ GAO, Homeland Security Acquisitions: DHS Has Strengthened 
Management, but Execution and Affordability Concerns Endure, GAO-16-
338SP (Washington, DC: Mar. 31, 2016).
    \9\ Initial operational capability is defined as the deployment of 
7 IFT systems in the area of responsibility for the Nogales Border 
Patrol station. Full operational capability is defined as deployment of 
the IFT system in the additional areas of responsibility of the 
Sonoita, Douglas, Ajo, Casa Grande, and Wellton Border Patrol stations.
---------------------------------------------------------------------------
    Despite these delays, as of May 2016 CBP reported that it has 
initiated or completed deployment of technology to Arizona for each of 
the 3 highest-cost programs under the plan--IFT, the Remote Video 
Surveillance System (RVSS), and the Mobile Surveillance Capability 
(MSC). Specifically, CBP officials stated that MSC deployments in 
Arizona are complete and that in April 2016, requirements to transition 
sustainment from the contractor to CBP had been finalized. CBP also 
reported that the RVSS system has been deployed, and testing on these 
systems is on-going in 4 out of 5 stations. Further, CBP reported it 
had initiated deployment of the IFT systems and as of May 2016 has 
deployed 7 out of 53 IFTs in one area of responsibility. CBP 
conditionally accepted the system in March 2016 and is working to 
deploy the remaining IFT unit systems to other areas in the Tucson 
sector.
    With regard to schedules, we previously reported that CBP had at 
least partially met the 4 characteristics of reliable schedules for the 
IFT and RVSS schedules and partially or minimally met the 4 
characteristics for the MSC schedule. Scheduling best practices are 
summarized into 4 characteristics of reliable schedules--comprehensive, 
well-constructed, credible, and controlled (i.e., schedules are 
periodically updated and progress is monitored).\10\ We assessed CBP's 
schedules as of March 2013 for the 3 highest-cost programs and reported 
in March 2014 that schedules for 2 of the programs at least partially 
met each characteristic (i.e., satisfied about half of the criterion), 
and the schedule for the other program at least minimally met each 
characteristic (i.e., satisfied a small portion of the criterion).\11\ 
For example, the schedule for the IFT program partially met the 
characteristic of being credible in that CBP had performed a schedule 
risk analysis for the program, but the risk analysis did not include 
the risks most likely to delay the project or how much contingency 
reserve was needed. For the MSC program, the schedule minimally met the 
characteristic of being controlled in that it did not have valid 
baseline dates for activities or milestones by which CBP could track 
progress. We recommended that CBP ensure that scheduling best practices 
are applied to the IFT, RVSS, and MSC schedules. DHS concurred with the 
recommendation and stated that CBP planned to ensure that scheduling 
best practices would be applied, as outlined in our schedule assessment 
guide, when updating the 3 programs' schedules. In May 2016, CBP 
provided us with complete schedules for the IFT and RVSS programs, and 
we will be reviewing them to determine the extent to which they address 
our recommendation.
---------------------------------------------------------------------------
    \10\ GAO, GAO Schedule Assessment Guide: Best Practices for Project 
Schedules, GAO-16-89G (Washington, DC: Dec. 2015). We developed this 
guide through a compilation of best practices that Federal agencies and 
industry use. According to this guide, for a schedule to be 
comprehensive, among other things, the schedule should: (1) Capture all 
activities, as defined in the work breakdown structure; (2) reflect 
what resources are needed to do the work; and (3) establish the 
duration of all activities and have specific start and end dates. To be 
well-constructed, among other things, a schedule should have all of its 
activities sequenced in the order that they are to be implemented with 
the most straightforward logic possible. To be credible, the schedule 
should reflect the order of events necessary to achieve aggregated 
products or outcomes, and activities in varying levels of the schedule 
map to one another. Moreover, a schedule risk analysis should be 
conducted to predict a level of confidence in meeting the program's 
completion date. For a schedule to be controlled, the schedule should 
be updated periodically using actual progress and logic to 
realistically forecast dates for program activities, and a baseline 
schedule should be maintained to measure, monitor, and report the 
program's progress.
    \11\ GAO-14-368.
---------------------------------------------------------------------------
    In March 2014, we also found that CBP had not developed an 
Integrated Master Schedule for the Plan in accordance with best 
practices. Rather, CBP had used separate schedules for each program to 
manage implementation of the Plan, as CBP officials stated that the 
Plan contains individual acquisition programs rather than integrated 
programs. However, collectively these programs are intended to provide 
CBP with a combination of surveillance capabilities to be used along 
the Arizona border with Mexico, and resources are shared among the 
programs. According to scheduling best practices, an Integrated Master 
Schedule is a critical management tool for complex systems that involve 
a number of different projects, such as the Plan, to allow managers to 
monitor all work activities, how long activities will take, and how the 
activities are related to one another. We concluded that developing and 
maintaining an Integrated Master Schedule for the Plan could help 
provide CBP a comprehensive view of the Plan and help CBP better 
understand how schedule changes in each individual program could affect 
implementation of the overall plan.
    We recommended that CBP develop an Integrated Master Schedule for 
the Plan. CBP did not concur with this recommendation and maintained 
that an Integrated Master Schedule for the Plan in one file undermines 
the DHS-approved implementation strategy for the individual programs 
making up the Plan, and that the implementation of this recommendation 
would essentially create a large, aggregated program, and effectively 
create an aggregated ``system of systems.'' DHS further stated that a 
key element of the Plan has been the disaggregation of technology 
procurements. However, as we noted in the 2014 report, collectively 
these programs are intended to provide CBP with a combination of 
surveillance capabilities to be used along the Arizona border with 
Mexico. Moreover, while the programs themselves may be independent of 
one another, the Plan's resources are being shared among the programs. 
We continue to believe that developing an Integrated Master Schedule 
for the Plan is needed. Developing and maintaining an Integrated Master 
Schedule for the Plan could allow CBP insight into current or 
programmed allocation of resources for all programs as opposed to 
attempting to resolve any resource constraints for each program 
individually.
    In addition, in March 2014, we reported that the life-cycle cost 
estimates for the Plan reflected some, but not all, best practices. 
Cost-estimating best practices are summarized into 4 characteristics--
well-documented, comprehensive, accurate, and credible. Our analysis of 
CBP's estimate for the Plan and estimates completed at the time of our 
review for the 2 highest-cost programs--the IFT and RVSS programs--
showed that these estimates at least partially met 3 of these 
characteristics: Well-documented, comprehensive, and accurate. In terms 
of being credible, these estimates had not been verified with 
independent cost estimates in accordance with best practices. We 
concluded that ensuring that scheduling best practices were applied to 
the programs' schedules and verifying life-cycle cost estimates with 
independent estimates could help better ensure the reliability of the 
schedules and estimates, and we recommended that CBP verify the life-
cycle cost estimates for the IFT and RVSS programs with independent 
cost estimates and reconcile any differences. DHS concurred with this 
recommendation, but stated then that it did not believe that there 
would be a benefit in expending funds to obtain independent cost 
estimates and that if the costs realized to date continued to hold, 
there may be no requirement or value added in conducting full-blown 
updates with independent cost estimates.
    We recognize the need to balance the cost and time to verify the 
life-cycle cost estimates with the benefits to be gained from 
verification with independent cost estimates. CBP officials stated that 
in fiscal year 2016, DHS's Cost Analysis Division would begin piloting 
DHS's independent cost estimate capability on the RVSS program. 
According to CBP officials, this pilot is an opportunity to assist DHS 
in developing its independent cost estimate capability and that CBP 
selected the RVSS program for the pilot because the program is at a 
point in its planning and execution process where it can benefit most 
from having an independent cost estimate performed as these 
technologies are being deployed along the Southwest Border, beyond 
Arizona. CBP officials stated that details for an estimated independent 
cost estimate schedule and analysis plan for the RVSS program have not 
been finalized. CBP plans to provide an update on the schedule and 
analysis plan as additional details become available, and provide 
information on the final reconciliation of the independent cost 
estimate and the RVSS program cost estimate once the pilot has been 
completed at the end of fiscal year 2017. Further, CBP officials have 
not detailed similar plans for the IFT. We continue to believe that 
independently verifying the life-cycle cost estimates for the IFT and 
RVSS programs and reconciling any differences, consistent with best 
practices, could help CBP better ensure the reliability of the 
estimates.\12\
---------------------------------------------------------------------------
    \12\ GAO, 2015 Annual Report: Additional Opportunities to Reduce 
Fragmentation, Overlap, and Duplication and Achieve Other Financial 
Benefits, GAO-15-404SP (Washington, DC: Apr. 14, 2015).
---------------------------------------------------------------------------
CBP Has Made Progress Toward Assessing Performance of Surveillance 
        Technologies, but Has Not Fully Applied Performance Metrics or 
        Assessed the Contributions of Its Technologies
    We reported in March 2014 that CBP had identified mission benefits 
of its surveillance technologies to be deployed under the Plan, such as 
improved situational awareness and agent safety. However the agency had 
not developed key attributes for performance metrics for all 
surveillance technologies to be deployed as part of the Plan, as we 
recommended in November 2011.\13\ Further, in March 2014, we found that 
CBP did not capture complete data on the contributions of these 
technologies, which in combination with other relevant performance 
metrics or indicators, could be used to better determine the impact of 
CBP's surveillance technologies on CBP's border security efforts, and 
inform resource allocation decisions. Although CBP had a field within 
its Enforcement Integrated Database for data on whether technological 
assets, such as SBInet surveillance towers, and nontechnological 
assets, such as canine teams, assisted or contributed to the 
apprehension of illegal entrants and seizure of drugs and other 
contraband, according to CBP officials, Border Patrol Agents were not 
required to record these data. This limited CBP's ability to collect, 
track, and analyze available data on asset assists to help monitor the 
contribution of surveillance technologies, including its SBInet system, 
to Border Patrol apprehensions and seizures and inform resource 
allocation decisions. We recommended that CBP require data on asset 
assists to be recorded and tracked within its database, and once these 
data were required to be recorded and tracked, that it analyze 
available data on apprehensions and technological assists--in 
combination with other relevant performance metrics or indicators, as 
appropriate--to determine the contribution of surveillance technologies 
to CBP's border security efforts. CBP concurred with our 
recommendations and has implemented one of them. Specifically, in June 
2014, CBP issued guidance informing Border Patrol Agents that the asset 
assist data field within its database was now a mandatory data field. 
Agents are required to enter any assisting surveillance technology or 
other equipment before proceeding.
---------------------------------------------------------------------------
    \13\ See GAO-14-368, and Arizona Border Surveillance Technology: 
More Information on Plans and Costs Is Needed before Proceeding, GAO-
12-22 (Washington, DC: Nov. 4, 2011).
---------------------------------------------------------------------------
    Further, as of May 2015, CBP had identified a set of potential key 
attributes for performance metrics for all technologies to be deployed 
under the Plan. However, CBP officials stated that this set of 
performance metrics was under review as the agency continued to refine 
the key attributes for metrics to assess the contributions and impacts 
of surveillance technology on its border security mission.\14\ In our 
March 2016 update on the progress made by agencies to address our 
findings on duplication and cost savings across the Federal Government, 
we reported that CBP had modified its time frame for developing 
baselines for each performance measure and that additional time would 
be needed to implement and apply key attributes for metrics. According 
to CBP officials, CBP expected these performance measure baselines to 
be developed by the end of calendar year 2015, at which time the agency 
planned to begin using the data to evaluate the individual and 
collective contributions of specific technology assets deployed under 
the Plan. Moreover, CBP planned to use the baseline data to establish a 
tool that explains the qualitative and quantitative impacts of 
technology and tactical infrastructure on situational awareness in 
specific areas of the border environment by the end of fiscal year 
2016. While CBP had expected to complete its development of baselines 
for each performance measure by the end of calendar year 2015, as of 
March 2016 the actual completion is being adjusted pending test and 
evaluation results for recently deployed technologies on the Southwest 
Border. Until CBP completes its efforts to fully develop and apply key 
attributes for performance metrics for all technologies to be deployed 
under the Plan, it will not be well-positioned to fully assess its 
progress in implementing the Plan and determining when mission benefits 
have been fully realized.
---------------------------------------------------------------------------
    \14\ GAO-15-404SP.
---------------------------------------------------------------------------
cbp utilizes unmanned predator b aircraft and tactical aerostats for a 
                 variety of border security activities
Preliminary Observations on CBP's Utilization of Predator B Aircraft
    Our on-going work shows that as of May 2016, CBP operates 9 
Predator B from 4 AMO National Air Security Operations Centers (NASOC) 
located in Sierra Vista, Arizona; Grand Forks, North Dakota; Corpus 
Christi, Texas; and Jacksonville, Florida.\15\ Three Predator B 
aircraft are assigned to the NASOCs in Arizona, North Dakota, and Texas 
while the NASOC in Florida remotely operates Predator B aircraft 
launched from the other NASOCs. AMO began operation of Predator B 
aircraft in fiscal year 2006, and all 4 NASOCs became operational in 
fiscal year 2011. See figure 1 for a photograph of a CBP Predator B 
aircraft.
---------------------------------------------------------------------------
    \15\ AMO's NASOCs perform specialized missions Nation-wide and in 
the Caribbean, eastern Pacific, and Central America, using Predator B, 
long-range patrol aircraft, and other aircraft. From 2010 to 2013, AMO 
operated a NASOC in Cape Canaveral, Florida, for UAS operations.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    CBP's Predator B aircraft may be equipped with video and radar 
sensors utilized primarily to support the operations of other CBP 
components, and Federal, State, and local law enforcement agencies.\16\ 
CBP's Predator B operations in support of its components and other law 
enforcement agencies include patrol missions to detect the illegal 
entry of goods and people at and between U.S. POEs and investigative 
missions to provide aerial support for law enforcement activities and 
investigations. For example, CBP's Predator B video and radar sensors 
support Border Patrol activities to identify and apprehend individuals 
entering the United States between POEs. CBP collects and tracks 
information on the number of assists provided for apprehensions of 
individuals and seizures of contraband, including narcotics, in support 
of law enforcement operations by Predator B aircraft. In addition, 
CBP's Predator B aircraft have been deployed to provide aerial support 
for monitoring natural disasters such as wildfires and floods. For 
example, CBP's Predator B were deployed in 2010 and 2011 to support 
Federal, State, and local Government agencies in response to flooding 
in the Red River Valley area of North Dakota.
---------------------------------------------------------------------------
    \16\ Predator B sensors include: Electro-optical and infrared 
camera that collects full-motion video, Vehicle and Dismount 
Exploitation Radar (VADER) which collects radar images of moving 
objects, synthetic-aperture radar that collects radar images that show 
terrain and structures and allow for analysis to detect change over 
time, and SeaVue radar which collects radar images of maritime vessels.
---------------------------------------------------------------------------
    CBP's Predator B aircraft operate in the U.S. National airspace 
system in accordance with Federal Aviation Administration (FAA) 
requirements for authorizing all UAS operations in the National 
Airspace System.\17\ In accordance with FAA requirements, all Predator 
B flights must comply with a Certificate of Waiver or Authorization 
(COA). The COA-designated airspace establishes operational corridors 
for Predator B activity both along and within 100 miles of the border 
for the Northern Border, and along and within 25 to 60 miles of the 
border for the Southern Border, exclusive of urban areas. COAs issued 
by FAA to CBP also include airspace for training missions which involve 
take-offs and landings around a designated NASOC and transit missions 
to move Predator B aircraft between NASOCs. As of May 2016, CBP has 
utilized the NASOC in North Dakota as a location to train new and 
existing CBP Predator B pilots. For our on-going work, we analyzed CBP 
data on reported Predator B COA-designated flight hours from fiscal 
years 2011 to 2015 and found that 81 percent of flight hours were 
associated with COA-designated airspace along border and coastal areas. 
For more information on Predator B flight hours in COA-designated 
airspace, see figure 2.
---------------------------------------------------------------------------
    \17\ See Federal Aviation Administration, Notice N JO 7210.889: 
Unmanned Aircraft Operations in the National Airspace System (Oct. 27, 
2015). The National Airspace System is the network of United States 
airspace that includes the interconnected and interdependent network of 
systems, procedures, facilities, aircraft, and people.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Based on our on-going work, we found that airspace access and 
weather can impact CBP's ability to utilize Predator B aircraft. 
According to CBP officials we spoke with in Arizona, Predator B flights 
may be excluded from restricted airspace managed by the Department of 
Defense along border areas which can affect the ability of Predator B 
to support Border Patrol. CBP officials we spoke with in Arizona and 
Texas told us that Predator B missions are affected by hazardous 
weather conditions that can affect their ability to operate the 
aircraft. According to CBP officials we spoke with in Texas, CBP took 
steps to mitigate the impact of hazardous weather in January and 
February 2016 by deploying one Predator B aircraft from Corpus Christi, 
Texas, to San Angelo, Texas, at San Angelo Regional Airport which had 
favorable weather conditions. CBP's deployment of a Predator B at San 
Angelo Regional Airport was in accordance with a FAA-issued COA to 
conduct its border security mission in Texas and lasted approximately 3 
weeks. We plan to evaluate how these factors affect CBP's utilization 
of Predator B aircraft as part of our on-going work.
Preliminary Observations on CBP's Utilization of Tactical Aerostats in 
        South Texas
    Our on-going work shows that as of May 2016, CBP has deployed 6 
tactical aerostats along the U.S.-Mexico border in south Texas to 
support Border Patrol. Specifically, CBP deployed 5 tactical aerostats 
in Border Patrol's Rio Grande Valley sector and 1 tactical aerostat In 
Laredo sector. CBP utilizes 3 types of tactical aerostats equipped with 
cameras for capturing full-motion video: Persistent Threat Detection 
System (PTDS), Persistent Ground Surveillance System (PGSS), and Rapid 
Aerostat Initial Deployment (RAID). Each type of tactical aerostat 
varies in size and altitude of operation. See figure 3 for a photograph 
of a RAID aerostat. CBP owns the RAID aerostats and leases PTDS and 
PGSS aerostats through the Department of Defense. CBP operates its 
tactical aerostats in accordance with FAA regulations through the 
issuance of a COA.\18\
---------------------------------------------------------------------------
    \18\ See 14 C.F.R. pt. 101. These rules govern operation in the 
United States of, among other things, any balloon that is moored to the 
surface of the earth or an object thereon and that has a diameter of 
more than 6 feet or a gas capacity of more than 115 cubic feet. Id. at 
 101.1(a)(1).
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Tactical aerostats were first deployed and evaluated by CBP in 
August 2012 in south Texas. CBP's Office of Technology Innovation and 
Acquisition manages aerostat technology and the operation of each site 
through contracts, while Border Patrol Agents operate tactical aerostat 
cameras and provide security at each site. As of May 2016, Border 
Patrol has taken actions to track the contribution of tactical 
aerostats to its mission activities. Specifically, agents track and 
record the number of assists aerostats provide for apprehensions of 
individuals and seizures of contraband and narcotics.
    Based on our on-going work, we found that airspace access, weather, 
and real estate can impact CBP's ability to deploy and utilize tactical 
aerostats in south Texas.
  <bullet> Airspace access.--Aerostat site placement is subject to FAA 
        approval to ensure the aerostat does not converge on dedicated 
        flight paths.
  <bullet> Weather.--Aerostat flight is subject to weather 
        restrictions, such as hazardous weather involving high winds or 
        storms.
  <bullet> Real estate.--Aerostat sites utilized by CBP involve access 
        to private property and land owner acceptance, and right of 
        entry is required prior for placement. In addition, CBP must 
        take into consideration any relevant environmental and wildlife 
        impacts prior to deployment of a tactical aerostat, such as 
        flood zones, endangered species, migratory animals, among 
        others.
    We plan to evaluate how these factors affect CBP's utilization of 
tactical aerostats as part of our on-going work.
    Chairwoman McSally, Ranking Member Vela, and Members of the 
subcommittee, this concludes my prepared statement. I will be happy to 
answer any questions you may have.

    Ms. McSally. Thanks, Ms. Gambler.
    I now recognize myself for 5 minutes for questions.
    I want to start off with Ms. Gambler. Are you familiar with 
our Border Security Technology Accountability Act?
    Ms. Gambler. I am, yes, Chairwoman.
    Ms. McSally. Can you share, from your perspective and your 
expertise, and whether that is going to assist in any of the 
challenges that you have raised in the past and continue to be 
issues?
    Ms. Gambler. Absolutely. That bill is very consistent with 
the findings and messages from GAO's prior work looking at 
CBP's efforts to deploy surveillance technologies. For example, 
the bill calls for making sure that technologies have 
acquisition program baselines in place, that the programs are 
monitored according to cost schedule and performance, and those 
address a number of the key findings that we have had related 
to CBP's technology programs. I might also add that it is 
reflective of leading practices and best practices for 
acquisition management.
    Ms. McSally. Great. Thank you.
    I just want to say, again, this has unanimously passed in 
the House. It is being held up in the Senate. It was reported 
out of committee. I mean, we are hearing, you know, rumors that 
it is being held up because our colleagues don't want us to 
have a win on any border security issue. I hope from, just your 
comments today and looking at the bill, that they would realize 
that this is a win for the taxpayers; this is a win for our 
improvement and processes for it being able to secure our 
border, and I hope we can get past the partisan bickering, and 
actually move this thing forward so we can put it into force.
    Okay. Next question I want to ask, really, Chief Vitiello, 
General Alles, Mr. Borkowski. As I opened up, I mentioned, I 
think, some of the initiatives you are doing are increasing a 
good common operational picture and providing good information 
that might be good for intelligence assessment to understand, 
kind-of, you know, where the cartels are operating. But if we 
are not getting it into the agent's hand, if they are not 
getting the information that the people back in the operation 
center have, then, you know, we still have more steps to make, 
right? So that they can, not have information overload, but 
actually have the best situation awareness possible.
    So of the technologies mentioned, or maybe some that are 
under development, which ones are actually in the hands of the 
agents that are out there intercepting the activity, or are 
they getting information over a radio? I want to--I just want 
to have a sense of, like, where they are in getting that 
information and what other initiatives might be in the pipeline 
in order to improve situation awareness for the agents that are 
out there?
    Mr. Vitiello. Thanks for that question.
    A lot of what the agents, and what we have invested in, and 
what we have been able to take from the DOD reuse, are 
association with the Department of Defense to take some of 
their excess material and equipment and put that in the hands 
of agents. So, obviously, the things that they use, the 
terminal binoculars, the long-range assistance to their vision, 
those are all hand-held. Some of those are truck-mounted, so 
those are all in the hands of the agents. So the agents that 
are operating that equipment can, in real time, inform response 
teams that are deployed with them in close proximity, the 
towers, the cameras, the RVSS. There is a combination of some 
of that being deployed at the sector level. So there is a 
command center in Tucson where the sector is, and that activity 
is then dispatched for response in that location.
    Ms. McSally. But is that by voice? That is what I am trying 
to get at. You might have a ground sensor; you have got a 
predator flying; you have got the information from the IFTs. We 
have perfect situational awareness in the command center. 
Again, I have been there in the military, where you understate 
exactly where the traffic is, but then you are telling the poor 
guy, poor gal on the run on a radio, like, here is what is 
happening. Are there tools that is actually getting that 
situation awareness to the agent that is not just a voice call?
    Mr. Vitiello. Yes. So it is via voice, but there are 
precise measurements being taken by the hits that the sensors 
get on the aircraft. Our own towers, our own sensors are 
deployed. All of that material and those sensors are geo-
referenced, and the agents are getting precise details about 
where that activity is occurring, and then the classification, 
you know, what kind of threat do they face, how big are the 
groups, et cetera, that does go over voice to them. But they 
are deployed in that same proximity as well.
    So there is a balance that has to be struck in terms of how 
much goes over the air and how much they get in their--in their 
hands as far as using tablets and all those kinds of things. We 
are doing some experiments about getting the information closer 
to them as it is occurring. There is also an information stream 
that they need to be aware of. Right? So when the 
classification comes through, that they prioritize the threat 
information versus just activity writ large.
    Ms. McSally. Great.
    Is there anything, Mr. Borkowski, in the works? Again, when 
I was flying my A-10, I am actually talking to guys on the 
ground that are seeing what I am seeing, my targeting pod, so 
their situational awareness increased.
    Mr. Borkowski. We are clearly, as you suggest, getting 
kind-of, demand for, give me blue force tracking, give me the 
picture that the camera is showing. We don't have that today. 
There are a couple of reasons. One is we don't have the 
infrastructure to send it. So that is one of the things we are 
struggling with.
    Having said that, both with DHS and with DOD, which has 
some of these technologies, our agents have been exposed and 
are piloting those things. I still have to figure out how to 
get the pipe, you know, to send it. But we are creating a 
demand from that. We are looking at technologies that DOD has. 
We have a project with DHS and border security awareness, which 
will look at this question. We have to handle the pipeline.
    One other thing I would add is, one of the things that 
broke badly on SBInet was there was a tremendous investment in 
this particular question that was not tightly defined. We 
actually had to pull away from that in order to build the 
hardware. Now that we have the hardware, we believe we are 
starting to get a tighter definition. But you are right. We 
need to crack that. There are a couple things that are really 
in the way. The biggest one that bothers me is the bandwidth to 
get the signal across.
    Ms. McSally. Yes. Okay. Thank you.
    All right, we are going to do a couple of rounds here, but 
I wanted to give opportunity for others, including the Ranking 
Member of the full committee.
    Mr. Thompson. Thank you, Madam Chair, and thank you, 
Ranking Member.
    Some of us have been around a little while, and we have 
seen procurements come and go. I guess I will ask Ms. Gambler: 
Your review of the systems, can you share with the committee 
your analysis of whether or not we are getting better at 
procurements? Or we are about where we have been all the time?
    Ms. Gambler. I think in this area, as it relates to border 
security, I think there has been some progress made, even 
relative to what we reported on 2 years ago as it relates to 
technologies under the Arizona Surveillance Technology Plan.
    CBP has been updating their schedules for some of the 
programs. They--what is called rebaselined the IFT program late 
last year. They are working on piloting an independent cost 
estimate for the RVSS program. So I think in certain areas, 
Ranking Member Thompson, they have made progress. I think there 
are still some key areas where we would like to see some 
additional progress, including for them to be able to assess 
what they are getting out of the systems. We are also, as we 
are starting some new work in these areas interested to see the 
results of some of the testing that's been done on the systems 
that has been recently deployed. So that is still, I think, an 
open question for us.
    Mr. Thompson. Thank you. I would--Mr. Borkowski, were you 
around with SBInet?
    Mr. Borkowski. Yes. I was brought in to try to clean up 
SBInet, but yes, I was around for----
    Mr. Thompson. So you know where I am going, right?
    Mr. Borkowski. I have a suspicion, sir.
    Mr. Thompson. Can you tell me if your clean-up has been 
complete? Can you give the committee assurance that the 
missteps made with SBInet won't be made again?
    Mr. Borkowski. Well, I could never assure you that we would 
never make another misstep. I can tell you that the odds of 
such a misstep are much lower, the risk of such a misstep is 
much lower than it was.
    We learned a lot from SBInet, and you know, we accommodated 
as much of that lesson as we could into this process. Having 
said that, we are still in the process of training people to be 
skilled acquisition program managers. They are getting better, 
but we are still in the process of training people.
    We are still----
    Mr. Thompson. How much of a reliance--excuse me. Are we 
relying on outside contractors to do that? Have we been able to 
pull that capacity within the organization?
    Mr. Borkowski. We do have contractors supporting us, but we 
have built organic, you know, Government employee skills that 
probably did not exist 4 years ago.
    So we do have program managers who are skilled. I wish I 
had more of them. I think that is part of the challenge is 
having enough people to meet all of the demands. So we have a 
mix of contractors, but in the past, we were much more reliant 
on those contractors to augment our own lack of skills. We have 
spent a great deal of time, both in CBP and in DHS in building 
up the Government employee workforce skills.
    Mr. Thompson. So is building up the Government workforce 
capacity an issue of you not being able to find the people, or 
you don't have the money if you found them, to employ them?
    Mr. Borkowski. I think it is both. But there are people out 
there. The money is a challenge. We compete, obviously, for 
Border Patrol Agents, CBP Officers, and frankly, if you had to 
ask what the priority is, I think it is Border Patrol Agents 
and CBP Officers. So we compete. We come after that, as I think 
we should. Money is an issue. There is also the hiring process 
is very long for a whole variety of reasons.
    So when we do identify people, sometimes it is very 
difficult for them to wait out the hiring process. So there are 
those kinds of issues as well.
    Mr. Thompson. So how long does it take to hire somebody?
    Mr. Borkowski. It can take a year-plus in some cases, 
depending on where--you know, how many people are in the queue. 
We are talking about Border Patrol Agents, CBP Officers, our 
own mission support people. We have background investigations. 
There are a whole bunch of people who are competing for the 
resources to do background investigations, so it could be 
months, and go to a year.
    Mr. Thompson. Have you highlighted your lack of being able 
to get people in a reasonable period of time as one of the 
weaknesses in the operation?
    Mr. Borkowski. I think as CBP corporately has spent a great 
deal of time on that question and issue about being able to 
hire people. Yes, sir.
    Mr. Thompson. Madam Chair, I think at some point, we might 
order from a human resources standpoint look at it, because all 
of us running the people all the time who are very qualified, 
who want to work for the Government----
    Mr. Borkowski. Yes.
    Mr. Thompson [continuing]. But if you tell them it takes a 
year, something like that, we ought to be able to come up with 
a better way of vetting people and getting them into the 
system.
    Mr. Borkowski. I agree.
    Mr. Thompson. I guess the last point is, it costs more to 
have outside contractors, right?
    Mr. Borkowski. Not always, sir. It is actually a case-by-
case, so not always. But I believe it is--if I had my druthers, 
I would have kind of a 2-1 ratio, Government-to-outside 
contractors, and right now I am about 50-50. There are some 
skills that are very difficult to get, frankly, at Government 
salaries, but it depends. It is not always cheaper to have 
Government than contractors. It depends on case-by-case.
    Mr. Thompson. So you wanted two-thirds or one-third?
    Mr. Borkowski. My sense is that would be about ideal. The 
reason for that is I want the capacity to, first of all have, 
surge, right? Government employees are good, steady state. I 
want to be able to surge, and contractor employees are very 
good for that.
    The other reason that I think contractors sometimes help is 
there are some very kind of scarce highly technical skills that 
are more accessible through contractors in many cases than 
through Government employees.
    Mr. Thompson. Thank you, Madam Chair.
    Ms. McSally. Thanks. I want to thank the Ranking Member of 
the full committee.
    In our last hearing here in the District of Columbia, we 
highlighted some of these manning issues for the CBP Officers 
at the port of entry. It took about 18 months. The Border Jobs 
for Veterans Act, which we passed, such as my bill, supposed to 
fast-track our veterans. The goal would be 90 days, but there 
is still a lot of work to do and lot of concerns and 
challenges. But, really, everybody on the subcommittee and 
across the committee that we have heard, so I think we still 
have a lot of work to do.
    Mr. Thompson. Right. I am just trying to make sure that we 
don't lose sight of the fact that that process is still--and 
what have you, and I would like my full statement to be 
admitted into the record.
    Ms. McSally. Without objection. Thank you, Ranking Member.
    Ms. McSally. The Chair now recognizes the Ranking Member of 
the subcommittee, Mr. Vela.
    Mr. Vela. So General Alles, what can you tell us about the 
issues in Corpus Christi with the predator being the weather?
    Mr. Alles. So for Corpus Christi, sir, that actually, for 
the predator overall, weather is a challenge for the system.
    Generally, it runs about a 20 percent higher cancellation 
rate than our manned aircraft for weather. So one of the 
efforts we are making currently, system-wide, is we are working 
with General Thomas on our automatic take-off and landing 
system which will improve the cross limitation of the aircraft. 
That is one. Then, second, we are looking at working out of 
divert fields, for instance, we used San Angelo this last year 
that are better winter weather operating locations. We have 
also deployed the asset to the transit zone during the 
wintertime. We get more effective operation out of the 
platform. We have two platforms right now in Columbia and 
Barranquilla operating. So that is how we look at the 
challenges there in Corpus Christi. We get efficiencies out of 
the site. It is a P-3 site also, so the P-3 pilots not only fly 
the P-3, but they fly the predator UAS at the same time. That 
is a great efficiency force in terms of operations, and if we 
split those sites up, we lose that efficiency. So that is how 
we tackled it so far, sir.
    Mr. Vela. So is the fog the issue basically, or----
    Mr. Alles. Generally, it is ceilings. In the wintertime I 
went through flight school actually in Kingsville, and I 
remember on many days sitting there playing AC/DC in the 
waiting room while the fog and whatever it was hung over. So 
getting out of that kind of coastal interference zone, I think 
is advantageous. San Angelo has been a good location.
    Our challenge, honestly, has been the FAA there. We have 
worked through those issues with them. They are very adverse to 
us operating out of civilian airfields. That is the first time 
an unmanned aircraft has operated out of a civilian airfield. 
That has worked well.
    Mr. Vela. Now, with respect to these tactical aerostats, 
how are you dealing with the landowners?
    Mr. Vitiello. So all of the sites need preparatory work, a 
little bit of what my colleague, Mr. Borkowski, said as it 
relates to our towers, real estate acquisition and permission 
to enter lands, et cetera. So all of the sites that are 
operating now are within--in conjunction with the landowners. 
Sometimes that is via a lease, sometimes that is a different 
kind of agreement. But it is all structured and scheduled so 
that they are aware of our presence. So far, we haven't had any 
challenges. It was difficult to move a couple of ones that were 
up north. There was a couple operational decisions, we wanted 
to move the ones closer to the border because of their effect, 
and the efficiency that the agents were getting, but all is 
going well so far.
    Mr. Vela. So, Chief, I think you are well aware of the 
challenges that we have on the other side of the border in 
Tamaulipas, Mexico with respect to cartel activity, 
kidnappings, and murders that have, you know, the State's 
deteriorated, over, you know, the last several years. What I am 
curious about, is there anything that we can do from your 
standpoint, technologically, to help in that area?
    Mr. Vitiello. It is a difficult challenge. We feel bad for 
the people who are a part of those communities. It is such--it 
is unfortunate that they face that situation. I think as it 
relates to help from here is to strengthen our relationship and 
provide Mexico with the mentorship, sharing of best practices, 
mechanisms to exchange information quickly, and then support 
their efforts to reform their domestic and their Federal law 
enforcement.
    Mr. Vela. So following up on that, what kind of shared 
practices are you currently using with law enforcement in 
Mexico?
    Mr. Vitiello. In its best form, we have programs underway 
under the border violence prevention protocols. It is a 
systematic way for us to sit down and understand where the 
violence is taking place, what it means to our deployments at 
the border, between the ports and at the ports as well, and 
then sharing information where it is critical and then it is--
in a deployment form, we do joint patrols with authorities in 
Mexico, in places where we know that violence or smuggling is 
occurring. It is a great benefit for them to have us close by 
on our side and then doing the same in Mexico. Those have 
worked out very well when they have the resources available to 
do it.
    Mr. Vela. Well, thank you.
    Before I yield, I would just add that I agree with, Madam 
Chair, with your perspective on the use of veterans. I think we 
need to have a much more robust approach around the country 
with respect to educating our veterans about the availability 
of these jobs. I think it is something that I surely look 
forward to working with you on.
    Ms. McSally. I agree with the Ranking Member. As long as it 
doesn't take 18 months for them to get a job. If we can get to 
that in less than 90 days and while they are still on active 
duty, that would be ideal. We have to keep working on that bill 
being implemented for the intent that it was supposed to be. So 
I appreciate it.
    The Chair now recognizes Mr. Rogers from Alabama.
    Mr. Rogers. Thank you, Madam Chairwoman.
    I want to revisit this issue of the aerostats. Can you tell 
me how many aerostats you have in--that are deployed at 
present?
    Mr. Vitiello. We have 6 deployed in the South Texas area.
    Mr. Rogers. Are they the same model or version or do they 
differ?
    Mr. Vitiello. There are 2 separate versions, they are both 
what we call the tactical version. They are both supported by 
mobile towers that also work the border environment that give 
us cameras and----
    Mr. Rogers. What do you mean supported by mobile towers? I 
see the tower on the truck here. Does that have to go somewhere 
closer to the aerostats?
    Mr. Vitiello. The aerostats, it is a deployment package. 
They come with towers that could be put up remotely. So when 
the envelope is flying, when the balloon is up in the air, it 
has sensors hanging off of it, the EOIR and day cameras, high-
definition cameras, and then there are towers that support in 
the area as well that can monitor the border for us that----
    Mr. Rogers. They receive signals from the aerostat?
    Mr. Vitiello. The signals go to a small command post, and 
then the information that is obtained there is then dispatched 
to response units in the field.
    Mr. Rogers. So it doesn't go to the truck that is carrying 
the tower?
    Mr. Vitiello. So there are other vehicles that we have that 
are Government equipment that are not DOD reuse; the MVSS, the 
MSS, which are--have similar equipment on masks in the back of 
mobile vehicles. Those are operated by Border Patrol Agents, 
who can then obtain the information from the screens and then 
distribute it via radio to response teams as well.
    Mr. Rogers. Are all 6 of the aerostats deployed at present?
    Mr. Vitiello. They are.
    Mr. Rogers. How long do they stay up?
    Mr. Vitiello. There is maintenance that is required, 
recurring maintenance that is required. We are constantly 
evaluating the readiness rate. They have to be brought down to 
change envelopes when something happens, when the wind is too 
high, things like that. But, generally, I think we talked about 
the other day, they are in the neighborhood of 80 percent up 
time, so while they are available. They are available 80 
percent of the time that they are deployed. But there are 
conditions which cause us to either do maintenance or bring 
them down for weather events, et cetera.
    Mr. Rogers. Are you keeping these in a particular sector?
    Mr. Vitiello. Right now they are deployed in South Texas, 
in what we call the Rio Grande Valley sector, which is the 
McAllen Rio Grande City area. They are there because as my 
colleague, Mr. Borkowski, said because we have a planned 
deployment there for integrated fixed towers for RVSS, for 
planned mobile trucks, et cetera. That stuff has to catch up 
our work on the ground to get those sites ready to purchase 
land, to do the environmental work is underway. In the mean 
time, we have deployed the aerostats to fill that gap given the 
activity levels that are in that part of the border.
    Mr. Rogers. Are all 6 of these from the DOD?
    Mr. Vitiello. They are all DOD reuse equipment that we have 
gotten from them.
    Mr. Rogers. Are there any remaining DOD aerostats available 
that you have not accepted?
    Mr. Vitiello. I believe they have more, but I am not aware 
of any that they have that we are actually asking for. I think 
we have 2 that we are getting ready to deploy elsewhere.
    Mr. Borkowski. Sir, there are--there are 3--3 incarnations 
of this, 2 large ones. DOD owns them, has not accessed them, 
but basically leases them to us. The smaller ones, which are 
called Raid. We own, I think, 8 of them. Two of them are 
deployed, so we have additional ones in storage. We also have 
towers that we can deploy independently of the Raid. So there 
are additional aerostats available that we have in storage. 
They cost, in like $3 million a year to run, so we are pretty 
judicious in how we apply them and where we apply them, but we 
do have smaller ones.
    Mr. Rogers. Do you have a need for more than the 6?
    Mr. Vitiello. We prefer to deploy the mobile technology 
that is on its way to us.
    Mr. Rogers. Why?
    Mr. Vitiello. Excuse me?
    Mr. Rogers. Why?
    Mr. Vitiello. The aerostats are a good gap filler. We see 
them as a temporary asset. We may not continue to use them in 
south Texas as the technology plan, the fuller requirement gets 
deployed. We will take them and use them in a place where the 
technology has to catch up. So they are a good gap filler. But 
because of the expense of their operation, operations and 
maintenance is quite high, so we are looking forward to a time 
where we have a more permanent infrastructure that is not 
dependent on the kinds of costs that these bring to us.
    Mr. Rogers. All of these are tethered, correct?
    Mr. Vitiello. They are.
    Mr. Rogers. At what altitude?
    Mr. Vitiello. I believe there is one that is at 1,800 feet, 
and the other one is something less than that, 12----
    Mr. Borkowski. The smaller ones are around 1,000 feet.
    Mr. Rogers. Have you all considered using some of the non-
tethered aerostats, then they can loiter for a longer periods 
of time?
    Mr. Borkowski. Like essentially blimps?
    Mr. Rogers. Correct. The Marines use those?
    Mr. Borkowski. We have looked at that. Right now, and the 
problem is we probably have to buy those. Those haven't been 
assessed. The advantage of these tethered aerostats, is that 
although we have to pay the operation and maintenance, we 
didn't actually have to buy the aerostat; we didn't have to buy 
the tower; we didn't have to buy the camera. That is why these 
were so attractive to us, and they seem to be the sensible 
thing for the time being.
    Mr. Rogers. One of the reasons I am so focused on these, is 
in my trips to the Southwest Border, we have had just a world 
of trouble with cameras, whether cameras on poles or trucks or 
whatever. To my knowledge, those problems still exist. Also, I 
like the fact that they are up high, and you can see further 
across the border where there is people gathering.
    So I am just curious, and this would be my final question, 
I know my time has expired: What is the downside?
    Mr. Borkowski. There are two. One is the cost. We are 
trying to drive those costs down. But it is $3 million or more 
for the bigger ones a year for these things.
    The second thing is that they are very weather-dependent. 
The Chief talked about 80 percent, but there are times of the 
year where we can have availability down to 60 percent 
depending on the weather. So you really have to kind-of have to 
trade their availability for the mission and their cost. So our 
sense is that there are probably areas where aerostats will 
make sense, but they are probably not the right long-term 
solution. We are using them like very high towers, as you 
suggested. And there are areas where they see over foliage, but 
in the areas where we are using them, we actually think the 
lower cost, more permanent, more highly-available fixed 
infrastructure makes more sense for the long term. We are still 
studying where the aerostats might have a long-term future, but 
it will probably be in spots.
    Mr. Rogers. I won't ask any more questions, but I would, 
Madam Chairwoman, like to, at some point, revisit the idea of 
micro sats to see if they are using any of those.
    With that, I yield back.
    Ms. McSally. The gentleman yields.
    The Chair now recognizes Ms. Torres of California for 
questions for 5 minutes.
    Mrs. Torres. Thank you, Chairwoman.
    How is CBP measuring the effectiveness of the technology 
deployed at the border, and what matrix are used and how does 
that compare over time?
    Mr. Vitiello. So we are collecting all--several elements of 
what you might call output measures, the number of arrests that 
have been made, how often in a particular area, agency 
assaults, the kinds of seizures that are being made, and we 
look at that in conjunction with the kinds of deployments that 
exist in those areas. As our colleague from the GAO reported, 
we are looking at systems that allow us at the time of arrest, 
as we are recording activity, to then attribute the--when there 
is a seizure or an arrest made, attribute the assist of the 
technology in those areas. Over time, you can start to look at 
the effect of certain kinds of deployments and how they 
contribute to seizures and arrests. That way, we can see which 
are the most valuable kinds of assets and how they are deployed 
or whether we need to make changes to those deployments.
    Mrs. Torres. So over time, is this technology going to be 
able to utilize over actual manpower?
    Mr. Vitiello. So we--our experience is, is that when we 
deploy in an area with the technology, be it mobile or fixed, 
we start to see more activity, because we turn the 
information--the information is more available. You know more 
about an area once these deployments occur. So there is usually 
more activity in the beginnings of those deployments.
    But over time, smuggling patterns change. The activity 
changes, the arrest and the effectiveness of the deployments of 
the agents themselves and the responses start to change that 
activity, and the smugglers look for other locations to enter 
in. So we have seen that sort of a spike in activity in the 
immediate aftermath of a robust deployment, and then we see the 
traffic shift and move, and then we--that is why it is 
important to have these gap fillers, that is why it is 
important to have mobile technology so we can be assured to be 
in the right place at the right time.
    Mrs. Torres. I understand that they are--there is a need to 
make a serious commitment, financial commitment, and it is 
going to be a lot more--it is a lot more costlier in the 
beginning, but over time, you know, my question really is, is 
it smart to spend this much money upfront? Are we going to save 
it in having actual personnel costs, you know, a few years down 
the road, and how long? Are we really looking at that, at those 
statistics?
    Mr. Vitiello. When you look at where we have gotten to on 
how we decided on the deployment, the Arizona Technology Plan 
is one, our plans for the other border deployments, we looked 
at--and Mark can speak more precisely about the analysis of 
alternatives--we looked at which technologies would be most 
advantageous. We used our experience and the feedback from 
users to decide in the CGAP process what technologies to use.
    But you are going to have to have--it is our opinion and 
our experience that you are going to have to have a mix. It 
might be more expensive on the front end to install the 
technology, but over time you see benefits of that. Sometimes 
that is fewer deployments in particular areas so that we can 
use the workforce more efficiently.
    Mrs. Torres. Yeah. Over time, I can see where you can 
modify equipment a lot easier than personnel habits.
    How is CBP defining situational awareness and operational 
control?
    Mr. Vitiello. So, on the situational awareness side, we are 
looking at the border in a couple of different ways. 
Situational awareness, as defined, is us being able to 
understand what is happening, have a predictive analysis, like, 
know where particular areas of the border are going to be 
problematic or where we know we are going to have traffic, and 
then have the kind of assets that are available, technology and 
the resources, agents on the line, in those locations to give 
ourselves real-time information about what is going on in that 
area.
    Mrs. Torres. Are all of these metrics that you are 
utilizing public, made public, this information?
    Mr. Vitiello. So, on the CBP site, the CBP.gov, there are 
output statistics about the kinds of activities, arrests. Those 
are usually posted at the end of each month, and so people can 
see that there.
    Mrs. Torres. So this is where the public can better 
understand whether these investments are actually paying out in 
ensuring, you know, that we are minimizing the number of 
crossings?
    Mr. Vitiello. So the statistics that are typically on the 
site don't attribute the work to the technology. It is more 
sort of an output measure of what is happening month by month.
    Mrs. Torres. Okay.
    Thank you.
    Ms. McSally. All right. Great. I am going to continue on 
with another round here. I have a lot of questions now that I 
have you all here.
    So I want to follow up, the Arizona Technology Plan, when 
fully complete--well, let me start with this, actually, Chief 
Vitiello. Our first hearing I had when I took over, you stated 
that, of the 2,000 miles of the border, you have situational 
awareness of about 56 percent of that border, Southern Border, 
right now.
    So for the Arizona Technology Plan, what percentage of 
that, of the miles of the Arizona border, did we have 
situational awareness of? Then, when complete, when it is fully 
rolled out, are we going to have 100 percent situational 
awareness so if it moves we see it, when the whole plan is 
implemented?
    Mr. Vitiello. Yeah, so last time I was here I might not 
have been as precise as I wanted to be as it relates to 
situational awareness.
    The 56 percent measure, at that time--and this changes 
quarter by quarter--was the areas of the border where the 
deployment itself advises the workforce, advises the response 
agents, advises us of what is happening in real time. So, at 
that time, about 56 percent of the border had a deployment that 
was responsive enough to know in real time when activity 
occurred at the border.
    So a response in real time--within, you know, a shift, 
agents knew about an entry and were able to mount a response.
    Ms. McSally. Okay. So I think maybe that is a definition 
issue. To me, that is operational control. Situational 
awareness is, if you see it--I mean, if it moves, you see it. 
That is, like, you know, metric No. 1. The second metric is, 
when you see it, you can get to it and stop it. That is the 
operational control piece, right?
    So we were just trying to get a sense of, of the 2,000 
miles of the border, if it moves and it is coming across the 
border, it is trying to breach, you actually see it. You may 
not be able to get to it, but you at least see it. So is there 
a different number that is not 56 percent?
    Mr. Vitiello. What we are trying do in this state of the 
border reporting that we are putting in our system and using 
for things like CGAP and using to inform our deployments, there 
is a level of situational awareness across the entire border. 
So the 56 percent number, that is happening in real time; the 
sensors, the agents themselves, the deployments are picking up 
that activity in real time and being able to respond to it.
    The rest of the border, we are using other technology to 
monitor it regularly, but there is not an immediate response in 
each of those cases. That other part of the border, where we 
are using GEOINT, where we are using change detection to 
monitor the border, it is not solely that. We have other 
methods of being able to monitor what is going on in those 
areas. But there is not necessarily a deployment or a sensor 
that picks up that activity. It is more of this change 
detection, using the UAS, using other assets to monitor the 
border.
    But I would say that, as it relates to situational 
awareness, how we see it, each and every zone of the border has 
some level of monitoring that occurs in it, whether it be our 
assets directly deployed, whether it be the community informing 
us of things that are going on or our own assets that are doing 
a monitoring that verify to us that there is or isn't activity 
going on.
    Ms. McSally. Okay. Yeah, I think we just have different 
definitions of situational awareness. I mean, I appreciate that 
some of the VADER stuff and change detection you are doing is, 
after the fact, being able to look back and kind of see some of 
the changes that have happened, which is really important for 
intelligence and, you know, predictive analysis and all that.
    Again, I am just a fighter pilot, and I am just trying to 
get down to, like, a simple metric of, if it is breaching, if 
it is about to cross the border, we see it in real time. In 
2,000 miles of the border, where do we have--we may not be able 
to get to it, we may lose it, but we see it happening real 
time.
    So, I mean, I don't want to waste a lot of time going back 
and forth on this, but I think that is one of the frustrations, 
I would say, of this committee and definitely of my 
constituents, is we don't know what the answer is as far as 
what can we see and then what can we actually get to? The price 
of drugs on the street is the best indication that supply and 
demand--there is still a lot of stuff that is getting through. 
I think that is fair enough.
    I think you said it yourself. Once we deploy technology, we 
all of a sudden see all the stuff that we didn't see before. It 
is not that they just started coming; it is just you can now 
see it. Is that a fair statement?
    Mr. Vitiello. I think it is fair as it relates to the state 
of the border reporting and when we are using the GEOINT and 
when we are using our own deployments.
    Ms. McSally. Yep.
    Mr. Vitiello. So it is accurate to say that the 56 percent 
number, that is a real-time deployment, so we know when it is 
happening in real time and can respond directly.
    Ms. McSally. Okay.
    Mr. Vitiello. In those other parts of the border, you may 
or may not need that kind of deployment, but, in the aggregate, 
you are aware of what is occurring over time.
    Ms. McSally. Okay.
    So, going back to my original question, when the Arizona 
Technology Plan is complete--which I definitely want to make 
sure I understand when that is going to be complete, based on 
all the different parts of it--what level of, what you are 
kind-of calling situational awareness, but I guess what I am 
calling operational control--like, what will you be able to--
real-time, you can see it moving across the border, what 
percentage of the, I think it is, you know, 360 miles of the 
Arizona border--it is the Arizona Technology Plan, so you are 
focusing on better technology for situational awareness in the 
Arizona border. What is the end goal? What is the end state?
    Mr. Vitiello. So that deployment is informed by agents on 
the ground that know how the technology works and know our own 
tactics for deployment and are aware of what the threat picture 
is. So, when those AORs are complete, we will have 100 percent 
monitoring of that border and being able to react in real time 
to all activity.
    Now, there are limits to the technology. There are deep 
canyons. You have been to these places in Nogales where it is 
really difficult to see on the ground even with the technology.
    Ms. McSally. Right.
    Mr. Vitiello. But those deployments are designed for us to 
be 100 percent successful.
    Ms. McSally. Okay. So 100 percent is the goal.
    So can you give me the time line of when all of the 
elements of the Arizona Technology Plan will be complete, as of 
right now?
    I don't know if that is for you to answer or you, Mr. 
Borkowski.
    Mr. Vitiello. I think Mark is probably better----
    Ms. McSally. Okay.
    Mr. Vitiello [continuing]. To tell us the precise detail.
    Mr. Borkowski. The long and short of it is we believe 
Arizona will be done by fiscal year 2019.
    Ms. McSally. The end of fiscal year 2019?
    Mr. Borkowski. Yes.
    Ms. McSally. Okay.
    Mr. Borkowski. That is due to 2 specific areas of 
responsibility in the Tohono O'odham Nation. Except for those, 
the remote video surveillance system will be done by the end of 
this year; 3 out of the 5 AORs in Arizona for IFT will be done 
by the end of fiscal year 2017. Then it is those 2 areas of the 
Tohono O'odham Nation that lag in getting complete.
    Ms. McSally. Okay.
    Just for expectations, too, for our constituents, in this 
fiscal year, what else is going in? I mean, the ranchers I was 
talking to last week----
    Mr. Borkowski. Right.
    Ms. McSally [continuing]. You know, the IFTs--can we just 
get a rundown of what is going in this fiscal year?
    Mr. Borkowski. Sure. So all of the remote video 
surveillance system, which are cameras and towers, the last 
area for that is Yuma. That is the last one to go in. That will 
be done by the end of this year.
    For IFT, we are starting Douglas. Douglas should be 
complete toward the end of this year. Sonoita will start going 
contract this summer, so it should be done in about a year from 
that. So those are the key activities going on between now and, 
say, the summer of 2017.
    Ms. McSally. Okay.
    So, fiscal year 2019, if everything is on track, the 
Arizona Technology Plan will be complete.
    I know, Ms. Gambler, one of the points that you have 
pointed out is there has not been an integrated schedule. They 
have been sort of the piecemeal schedule. Is that still 
something you think is needed for the Arizona Technology Plan 
or for additional plans moving forward in Texas or other areas?
    Ms. Gambler. Yeah, two points there, Chairwoman McSally.
    No. 1, we still continue to believe that an integrated 
master schedule for the whole plan would help CBP better 
oversee the extent to which it is completing all of the 
programs under the plan within expected time frames. I know CBP 
disagrees with that. We continue to believe in that 
recommendation.
    Second, as I mentioned earlier, for 2 of the programs under 
the plan, CBP has updated their schedules just for those 
programs. We will be looking at those 2 schedules going 
forward--we just recently received them--to see the extent to 
which they meet best practices, which has been some of our 
other recommendations. So, again, that is sort of an open 
question for us, but it is progress that they have updated the 
schedules.
    Ms. McSally. Great. Thank you.
    I want to switch to a different topic, which is the use of 
tactical unmanned aerial systems or aerial vehicles. I know we 
talked about this in the first hearing I held.
    I realize the Predator provides situational awareness sort-
of at the operational or strategic level, but there are tools 
that are out there that we are currently using in the military 
where the agents could launch something that gives them 
situational awareness tactically.
    I know you all mentioned that it is being looked into, but 
can I get a very specific answer as to whether there is a 
requirement and a move to provide tactical UAVs to our agents 
on the ground to improve situational awareness?
    Mr. Vitiello. So we do have an operational requirements 
document. So the Border Patrol at CBP, our partners in CBP writ 
large are convinced that this is a technology that needs to go 
into the hands of agents. We have made an operational 
requirements document, sort-of the official recognition of 
that. We are working with OTIA to understand what resources are 
available and how we would deploy them. We are in discussions 
with CBP Air and Marine to make sure that we are not in 
conflict as it relates to the airspace issues.
    Then we have 2 projects, the same project underway with the 
Department of Homeland Security Science and Technology 
Directorate, in which they have helped us identify what 
resources are available, what the limitations for some of that 
resource is, so we can start to narrow on which platforms will 
be available to us.
    We are in discussions for a memorandum of understanding 
with the FAA on the certificate of authorization. Again, that 
is part of the deconfliction piece. We are in a relationship 
with Naval Systems Command about contracting vehicles and about 
their own experience and best practices with using these 
elements.
    We believe that we are very well on our way to start these 
deployments, because we think they are necessary for agents in 
the field.
    Ms. McSally. I agree.
    Is one of the options--I don't know if there is any excess 
property from the DOD. Is one of the options excess property or 
just manufacturing capabilities that already are being deployed 
with the DOD as opposed to reinventing the wheel?
    Mr. Vitiello. So we are narrowing with S&T on what they 
call the RVSS program to decide which of the things are 
available either through DOD or through other vehicles for us 
to use.
    Ms. McSally. So what is the time line we are looking at for 
that?
    Major General Alles, you can jump in.
    Then, Ms. Gambler, I want to make sure there is a--you 
know, we don't want to have lessons identified that are 
actually lessons learned from past procurement buffoonery. So 
is this going along based on the lessons learned from previous 
procurement issues?
    General Alles, do you want to pipe in?
    Mr. Alles. I was just going to mention one. We are going to 
do a near-term program with Border Patrol soon. But that is 
really to develop a COA in a particular area and apply the 
technology and see how it works before we move forward to any 
kind of procurement. So that would be step 1 in the process.
    Just to note, the main problem here is the FAA still. So we 
can probably work out a COA and carve out a piece of airspace 
to work these smaller platforms in, but there are still no 
rules issued to actually operate these things, big picture, 
across the board. That still is coming and needs to be taken 
care of.
    Ms. McSally. Okay. Great.
    Ms. Gambler.
    Ms. Gambler. Yep, this is something that we are touching on 
as part of some of our on-going work, looking at, you know, 
this kind of small UAS program. So that is something we can 
certainly follow up with you on and try to give you some more 
information on going forward.
    But it will be, you know, important for them to proceed, 
you know, in line with kind-of good acquisition management, you 
know, good testing, best practices, to ensure that, you know, 
to the extent that they do end up deploying some type of a 
system, that it meets requirements and that it is rolled out 
according to cost, schedule, and performance expectations.
    Ms. McSally. Great. Thank you.
    I know I mentioned it last time, but Cochise College in 
southern Arizona is co-located there, and they have a great UAV 
program on the civilian side. They really want to have a 
conversation to partner on anything that might be rolled out, 
just to be able to, you know--not again having to reinvent 
training schools and operations that they already have on-
going.
    So I just want to lay that out there again, that I think 
these types of innovative partnerships like that would be 
really important if you are rolling anything like that forward.
    I want to switch to ultralight detection. I think it was my 
first week in office, when I went back home, I got a full day 
with the Border Patrol team in the Tucson sector, to include a 
Black Hawk ride where a radar picked up a potential ultralight 
crossing, and we flew around in circles trying to find it. I 
was helping looking out the window, using my fighter pilot 
eyes, trying to help. It was like, you know, a needle in a 
haystack. It is impossible, as you know, very difficult to be 
able to detect these low-flying lightweight ultralights.
    You know, the intended program to address that pretty much 
failed. So is there any additional technologies and programs we 
are looking at in order to solve this problem of the ultralight 
detection?
    Mr. Borkowski. Yes.
    First of all, the ultralight threat when we started was 
high-urgency. So we went after this program that was not 
successful. If the ultralight threat were as urgent as it was, 
though, we would probably use those, because they actually 
could detect the ultralights; it is just they were very labor-
intensive.
    So we are looking for options to that. The urgency for the 
program is not as high as it was, but one of the things we are 
looking at is a DOD reuse system. There is a----
    Ms. McSally. Why is it not urgent anymore?
    Mr. Borkowski. We are seeing a tremendous decline in the 
number of ultralights.
    Mr. Alles. I will just mention the numbers. The high was in 
fiscal year 2010, 235. So far this year, 19.
    Ms. McSally. Do we know why that is?
    Mr. Alles. There are other methods of crossing the border 
to move the drugs, ma'am.
    Ms. McSally. Okay.
    Mr. Borkowski. So, again, I think if it jacked back up, we 
would probably go pull those ultralight aircraft detection 
systems and use them, because they would be worth it for that 
threat, but the threat has gone down.
    Having said that, we have identified a couple of systems, 
one of which we have access to from DOD--it requires some 
modifications of software, and it is called a lightweight 
counter-mortar radar--that shows some potential here.
    We also continue to do market research with industry. I 
don't always want to immediately go to DOD and, you know, 
foreclose opportunities for industry. There are other radars in 
industry as well.
    But that is what we are looking at, and that lightweight 
counter-mortar radar looks very promising.
    Ms. McSally. Okay. Great. Thanks.
    Do we know--I guess this would be to Mr. Borkowski.
    Are there any other DOD excess property or any other 
technology that we know exists within the DOD that you all are 
looking at to get your hands on in order to help with the 
situational awareness?
    Mr. Borkowski. For situational awareness? Well, they 
obviously have kind-of common operating picture command-and-
control-type systems that we look at. In fact, they have 
something called ART/TSOA, if you are familiar with that--
Adaptive Red Team--where they bring a bunch of these industries 
in and plug them in. So we participate in those, and we look at 
those technologies.
    With respect to, though, situational awareness, DHS S&T has 
what is called an Apex Program, because they are trying to get 
their arms around. As you can imagine, there is all kinds of 
stuff to sort through. So DHS S&T is doing a border situational 
awareness Apex Program basically to help us put all of that 
information together and to choose what is the right approach. 
I think that is where we will rely to make some smart decisions 
going forward.
    Ms. McSally. Okay. Great. Thank you.
    Sorry. I am just firing off a bunch of questions here.
    But I think it was in our first hearing I also asked a 
question about looking at putting VADER on manned aircraft. 
This is something that has been done in the past in other 
departments. Is there any looking into that, due to the 
limitations, both airspace and weather, of, you know, the 
Predator ops?
    Mr. Alles. So what we are looking at as an S&T effort is a 
lighter VADER-type system to put on our smaller aircraft, not 
necessarily the VADER operating on the UAS now. So that has 
been kind of the current direction we are looking at. We are 
looking at that, you know, through different, you know, 
technological venues.
    So nothing substantial yet on that. We are really exploring 
the options at this point.
    Ms. McSally. Okay. Thanks.
    Then, in between the tactical UAVs and the Predator, are 
there any other UAVs? There is a whole swath in that middle 
area there that are smaller and potentially cheaper. Is there 
any investigation or requirement that you are looking at to 
procure any, sort-of, mid-level UAVs? I just made up that 
terminology, but you know what I am saying--not quite the ones 
that the agents are deploying but not quite the Predator.
    Mr. Alles. So I think, to answer that, until we get full 
use out of the Predator in the airspace, I would actually not 
want to move in that direction. So, in my mind, the Predator 
actually fills the high and medium gap. What Chief Vitiello 
wants to do on the small side, which I think is a good effort, 
will fill the low-altitude gap.
    But the real issue is I can get a Scan Eagle or something 
like that, I can't operate it in the airspace. The FAA won't 
let me.
    Ms. McSally. Yep.
    Mr. Alles. So the rules still prevent that. Until we can 
move beyond those and really get open use of the airspace with 
the Predator, that is going to be the limitation.
    We are moving in that direction with the due-regard radar. 
We have a single Predator now equipped with that. We are going 
to test that and see if that is going to help open up the 
envelope with the FAA.
    Ms. McSally. Great. Thanks.
    I want to move into the, kind-of, procurement process big 
picture. I know a lot of the things that Ms. Gambler, the GAO 
has pointed out, trying to move DHS more in line with practices 
in the DOD. Although I serve on the Armed Services Committee, 
and I will tell you, you know, there are good things about the 
DOD acquisition process, but that can also be quite painful and 
slow and bureaucratic and not nimble. By the time we get 
through all the machinations of the process, the technology has 
already changed, and, you know, we are late to the game.
    So we are actually putting in, you know, the defense bill 
and additional legislation some changes to that process. So you 
don't necessarily want to mirror all of the DOD. You want to 
take the best of it but not the painful amounts of it. So, I 
mean, is that part of what is being looked at? Or are we just 
trying to mirror the DOD?
    One of the issues in the DOD is getting project managers, 
contracting officers. It is basically human resources, human 
development, making sure we are recruiting, training, 
equipping, and keeping, retaining, you know, those that have 
this unique expertise that, thank God, I never had to have in 
the Air Force myself.
    But on the manpower side and the development of expertise, 
I just wanted to hear perspectives on that and what is being 
done to address that issue.
    Ms. Gambler. Sure.
    So your first question first, on kind-of the DHS 
acquisition management process. I think the bottom line of 
GAO's reporting on this has been that, across the Department, 
not just with CBP but across the Department, DHS has a fairly 
sound, knowledge-based process for managing its acquisition. So 
that kind of foundational process, from our perspective, is in 
place.
    Where DHS has fallen down has been on the execution. So 
what I mean by that is ensuring that acquisition programs go 
through that process, have approved acquisition documents 
before they move to the next phases in the process. That is 
where, kind-of, DHS has fallen down in terms of implementation. 
Again, they are making progress, but they still have a ways to 
go.
    I might add that DHS acquisition management challenges are 
part of the reason why DHS management more broadly is part of 
GAO's high-risk list. So that is point No. 1.
    The other point that I would make with regard to having the 
right acquisition management personnel in place to manage these 
programs, that also has been a challenge that GAO has reported 
on across the Department. It has also been something we have 
reported on related to CBP.
    Some of the challenges that we identified in our last 
report regarding why some of the programs under the Arizona 
Technology Plan were not meeting schedule had to do with CBP 
and OITA not always having the resources in place they needed 
to manage the acquisitions, review some of the proposals, and 
that kind of thing.
    So that, I think, has been a challenge in the past for DHS 
and for CBP.
    Ms. McSally. Mr. Borkowski, do you want to add anything to 
that?
    Mr. Borkowski. Yes, I think that is exactly right.
    Now, certainly, obviously, DHS is working on this. So, for 
example, I understand this issue about documentation, but I 
will tell you that Under Secretary Deyo and Deputy Under 
Secretary Fulghum have, frankly, been beating the, you know, 
stuffing out of us. A lot of emphasis on getting that document 
current. We had a big push at the end of last year. Mr. Fulghum 
made a commitment to the Congress, and we all got that word, 
and we did that. So that is clearly an area of emphasis.
    This area of expertise in program management is a big 
threat issue. We have spent a great deal of time on it. We have 
a Homeland Security Acquisition Institute; we have sent people 
to school. But the experience is the big thing.
    A lot of my time is occupied on running reviews of 
programs, not so much to collect status but to start getting 
people to understand what it means to review a program. What 
does cost even mean? You know, for example, cost in acquisition 
really means, did you get for a dollar what you expected to 
get? But you will get a lot of conversation about, do I have 
the budget? That is a different question. So understanding what 
a baseline is, the basics of program management.
    I will tell you I think we have made tremendous progress 
over the last few years. But you can imagine what that does to 
acquisition, when you are doing the training while you are 
deploying. Those have been challenges.
    Then, of course, getting enough people and not burning 
people out, as we discussed with Mr. Thompson, is another 
issue.
    Ms. McSally. Are you actively recruiting from the DOD those 
that are separating or retiring?
    Mr. Borkowski. In terms of acquisition positions, we don't 
actually go to DOD and ask for people. However, we get a lot of 
DOD applicants to our open applications. So I think the word 
gets out.
    Ms. McSally. It seems like that is where the experience 
would be, right?
    Mr. Borkowski. Yes.
    Ms. McSally. So, I mean--although maybe they are leaving 
and they want to go do something else. But, certainly, if they 
have the experience in program management, that would be, you 
know, transferable skills.
    Mr. Borkowski. Right.
    Ms. McSally. Okay.
    I am going to keep going here. I have a couple more.
    Chief Vitiello, I don't know if it is for you or General 
Alles or both. Can you let us know when the CGAP analysis is 
going to be available or to be shared with us here in Congress?
    Mr. Vitiello. So we are happy to work with you on a 
schedule to catch you up to where we think we are. But CGAP, by 
its design and the work that we did with applied physics at 
Johns Hopkins, is an iterative process.
    Ms. McSally. Okay.
    Mr. Vitiello. So what we have done up until now is sort-of 
learn the process and learn the best practices, which comes 
from our own experience plus what they have learned, along with 
DOD, to help us identify what the mission needs are, how to 
fill capability gaps, and what the use case is for identified 
technologies or changes in tactics, et cetera.
    So what we have done is we have trained a majority of the 
workforce that are deployed in an effort to understand the 
process, what CGAP is, how to apply it in their own AOR, and 
then feed us that information at the headquarters to then turn 
in to requirements. Then we can push over with our requirements 
folks in our office and then over to OTIA to move the process 
forward.
    So we would be happy to come back and give you sort-of a 
detailed brief about the number of people that have been 
trained, the kinds of discoveries that we have made, and asking 
agents for their feedback, how they would solve particular 
problems; look at the material resources, like we need a tower, 
we need a sensor, we need a tripwire, and then the other, the 
non-material things, like consequences and things that happen 
maybe post-arrest or information exchange with other 
departments, et cetera.
    So we would be happy to come back and give you sort-of the 
full range of what has been trained and what it is designed to 
do and then what the roll-up report looks like, but recognizing 
that it is iterative. As the threats change, as conditions 
change----
    Ms. McSally. Right.
    Mr. Vitiello [continuing]. We want to be able to update 
those plans so that we are not investing in last year's problem 
but are working ahead.
    Ms. McSally. Great.
    General Alles.
    Mr. Alles. I think on the Air and Marine side we are in the 
early stages of it. We would expect our really first 
substantial output to be about a year away. So they are 
currently early in the process, as discussed. As the chief 
mentioned, it is an iterative process, but we would expect a 
more substantial output here really next summer.
    Ms. McSally. Okay. Great. Thank you. Yeah, let's follow up. 
I don't know if some of it is Classified, but maybe with a 
briefing we could do later on, just to kind-of see where we are 
at.
    You mentioned it, Chief Vitiello, but the actual agents are 
part of that process, right? It is not just the sector 
leadership and above?
    Mr. Vitiello. That is correct. So the people who are 
involved in the planning for their particular area.
    Ms. McSally. Yeah.
    Mr. Vitiello. So the station level, the people who are 
actually deploying on the ground, are taking feedback from the 
people who are making the arrests, who are deploying and they 
are looking at the line each and every day. That feeds up into 
the station, rolled up to the sector each, and then that comes 
back to us. People are trained in each of those processes to 
then feed to us. Then that turns into requirements, it turns 
into forecasts for budgets and programming, et cetera.
    Ms. McSally. Great. Thanks.
    General Alles, I want to follow up on my earlier question 
on getting information to the agents. I know the Big Pipe 
allows the Predator feed to get to a desktop, but is there 
something in the works to actually get it to an iPad or 
something that is more mobile for the agents?
    Mr. Alles. Yes, ma'am. A couple things there.
    So, first off, we are pursuing the Minotaur system. This is 
a Naval Air Systems Command system that is used on their patrol 
aircraft to distribute information. So that is essential for us 
to take information off our platforms--radar information, the 
EOIR, signals information--and actually put it into a system 
that can redistribute it to other assets that have Minotaur. It 
goes back to the AMOC in Riverside and can be sent back out.
    In terms of local agents, part of that is what Chief 
mentioned in terms of looking down the Blue Force Tracker 
route. We can already send video. We can distribute what is 
called a carry viewer to agents on the ground so they can 
actually see video if that is desired. Typically, we are using, 
you know, actually, radio information to cue the agents.
    There is a system we are looking at, which the name eludes 
me, which will allow us to put that information on something 
like an Android phone or an iPhone, which can actually form its 
own local network, which could be advantageous for us in terms 
of sending video from aircraft down to actual agents on the 
ground.
    So those are the directions we are going. I would say there 
is a lot of work to be done there.
    I think on the, kind-of, investigation side, supporting his 
or those, we are able to move the video very easily in those 
areas and give it to agents on the ground. In the more remote 
areas, that is still an area that we need substantial work in.
    Ms. McSally. Great. Thanks.
    I also want to ask you, General Alles, about--the National 
Guard has been supplementing with, you know, some of the air 
assets, but this last year my understanding is that their 
number of hours or support was cut in half.
    When you guys are doing the CGAP analysis, are there 
assumptions made on National Guard capabilities that are a part 
of your plan, or are they assumed to not be there? How is that 
impacting your operations or the gaps?
    Mr. Alles. So, I mean, from our standpoint, a couple 
things. First off, in the areas where we were using the 
National Guard hours, we have made a substantial move of our 
assets into those locations. So, in the south Texas area in 
particular, we have increased our assets by over 50 percent, 
along with our flight hours have gone up proportionally also.
    In actually doing the CGAP analysis, we are not necessarily 
counting on their support. As you are aware from the Armed 
Services side, they have had substantial cuts in the DOD 
budget. I mean, I have been reading the articles on the Marine 
Corps and getting 30- or 40-percent readiness rates on their 
aircraft. So they have major challenges there.
    So we aren't necessarily looking for that in the analysis. 
We are looking to support the Border Patrol and our other 
operations with our own internal assets and analyze the gaps in 
that method.
    Ms. McSally. Okay. Great. Thanks.
    Mr. Borkowski, can you talk about how you are sharing 
requirements with industry so they can spend their R&D dollars 
to meet, you know, agents' needs? Or how do you engage with 
industry earlier in the process, you know, searching for new 
technology?
    Mr. Borkowski. Well, we do that through a whole bunch of 
ways. So, first of all, when I am in town, I have probably a 
meeting a day with anybody who wants to come and talk to me. 
Sometimes they want to tell me what they have got; sometimes 
they want us to discuss generally our issues.
    We have reverse industry days, where we talk to industry 
about our requirements. We speak at any number of conferences, 
where we list our technology interests for industry. We also 
work very closely with DHS S&T that has a very extensive 
outreach program, including to nontraditional industry, right? 
Because it is kind of easy to get to the traditional people 
because they know how to connect with us, but the 
nontraditionals.
    Ms. McSally. Right.
    Mr. Borkowski. So we have a whole bunch of ways that we 
talk to them.
    Now, the tricky thing is when we are getting ready for an 
acquisition. That is where we have a more focused discussion 
about: What are the requirements, how should we depict them, 
what would industry be able to respond to. Then things get a 
lot more detailed.
    But in advance of that, it is a more general discussion of, 
these are our interests in technology areas, this is what we 
think we plan to do over the next few years. We do that through 
a number of mechanisms.
    Ms. McSally. Great. Thanks.
    All right. I am about to wrap up, but I want to give the 
opportunity for all the witnesses, if there is anything else 
that you didn't get to share in your opening statement or 
through the questions that came out. Is there anything else 
that any of you want to present on the record for the 
committee?
    Chief.
    Mr. Vitiello. Well, thank you for this opportunity. Just to 
reiterate some of the testimony and what is in the prepared 
remarks, we are interested in having the most effective and 
efficient sustainable technology that is available.
    I think it is important--and I think we have heard this 
today--that we will never be as fast as the market to bring 
these things into the hands of agents. We have wonderful men 
and women out there that have really great ideas about how to 
do the job more efficiently, but the bureaucracy doesn't always 
support that rapid acquisition and putting those things in 
their hands as quickly as even we would like them to.
    But they are our best assets as it relates to that last--
what we call the last 50 meters. You have to have people on the 
ground that support the technology, that the technology has to 
support them. But, at the end of the day, they are the ones 
that have to make contact with whatever that threat is.
    So we appreciate them for that work. We appreciate you, in 
your oversight role, in helping us prepare them to give us the 
tools that they deserve to be successful. So thanks for that.
    Ms. McSally. Great. Thanks, Chief.
    General Alles.
    Mr. Alles. I would just like to thank the committee 
generally for the, you know, support they give to the agency in 
terms of us performing our mission. You know, not only the 
oversight part of it, but also the interest of the committee 
Members--multiple trips and, you know, looking at the stuff 
that we are working on.
    I could list a list of things that we want. We can provide 
that off-line. But just appreciate the participation of the 
committee.
    Ms. McSally. Absolutely. Thanks, General Alles.
    Mr. Borkowski.
    Mr. Borkowski. I would just add that, recognizing the 
committee's frustration, we certainly have appreciated the 
continued support despite the frustration. It has been very 
significant to us, and it has helped us a great deal.
    As we do go forward, I would like to have continued 
discussion about what do we do about the cultural and 
structural impediments, because the biggest beating I get is on 
time. Yes, cost and performance are important. I think we have 
done okay there. But the time is killing us all.
    Some of that, I think, will require a different thinking 
about how we accept risk. Because to innovate takes risk, and 
that means occasionally we will have failures. What is the 
right risk tolerance? Frankly, the community that works in this 
business is very risk-averse, and that is one of the things we 
really have to crack.
    But I appreciate the opportunity to testify, and I 
appreciate the committee's continued support.
    Ms. McSally. Absolutely. Those are the same types of 
discussions we are having, by the way, on the Armed Services 
Committee related to the DOD.
    Ms. Gambler.
    Ms. Gambler. I just want to say thank you for inviting us 
to testify today.
    Just some of the last items that we were talking about 
here, in terms of ultralight detection, the CGAP process, 
technology metrics, we do have on-going work for the 
subcommittee in a number of those areas. So we would be happy 
to follow up with you and your staff to brief you at any time, 
and look forward to that work coming out in the future here as 
well.
    Ms. McSally. Great. Thanks, Ms. Gambler. I appreciate it.
    All right. I want to thank all the witnesses for your 
valuable testimony and the Members for their questions.
    The Members may have some additional questions for the 
witnesses. We will ask you to respond to these, please, in 
writing. Pursuant to committee rule 7(e), the hearing record 
will be held open for 10 days.
    Without objection, the committee stands adjourned.
    [Whereupon, at 4:21 p.m., the subcommittee was adjourned.]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
